<html>
<title> - NOMINATIONS OF ANNE ELIZABETH WALL, TO BE DEPUTY UNDER SECRETARY,</title>
<body><pre>[Senate Hearing 114-229]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 114-229

                  NOMINATIONS OF ANNE ELIZABETH WALL, 
                 BRODI L. FONTENOT, AND RAFAEL J. LOPEZ

=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                 on the

                             NOMINATIONS OF

 ANNE ELIZABETH WALL, TO BE DEPUTY UNDER SECRETARY, DEPARTMENT OF THE 
TREASURY; BRODI L. FONTENOT, TO BE CHIEF FINANCIAL OFFICER, DEPARTMENT 
       OF THE TREASURY; AND RAFAEL J. LOPEZ, TO BE COMMISSIONER, 
 ADMINISTRATION ON CHILDREN, YOUTH, AND FAMILIES, DEPARTMENT OF HEALTH 
                           AND HUMAN SERVICES

                               __________

                             APRIL 23, 2015
                               __________

 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
                                     

            Printed for the use of the Committee on Finance

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-713-PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          















                          COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    CHARLES E. SCHUMER, New York
PAT ROBERTS, Kansas                  DEBBIE STABENOW, Michigan
MICHAEL B. ENZI, Wyoming             MARIA CANTWELL, Washington
JOHN CORNYN, Texas                   BILL NELSON, Florida
JOHN THUNE, South Dakota             ROBERT MENENDEZ, New Jersey
RICHARD BURR, North Carolina         THOMAS R. CARPER, Delaware
JOHNNY ISAKSON, Georgia              BENJAMIN L. CARDIN, Maryland
ROB PORTMAN, Ohio                    SHERROD BROWN, Ohio
PATRICK J. TOOMEY, Pennsylvania      MICHAEL F. BENNET, Colorado
DANIEL COATS, Indiana                ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina

                     Chris Campbell, Staff Director

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)






















                            C O N T E N T S

                               __________

                           OPENING STATEMENTS

                                                                   Page
Hatch, Hon. Orrin G., a U.S. Senator from Utah, chairman, 
  Committee on Finance...........................................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     3

                        ADMINISTRATION NOMINEES

Wall, Anne Elizabeth, nominated to be Deputy Under Secretary, 
  Department of the Treasury, Washington, DC.....................     6
Fontenot, Brodi L., nominated to be Chief Financial Officer, 
  Department of the Treasury, Washington, DC.....................     7
Lopez, Rafael J., nominated to be Commissioner, Administration on 
  Children, Youth, and Families, Department of Health and Human 
  Services, Washington, DC.......................................     8

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Fontenot, Brodi L.:
    Testimony....................................................     7
    Prepared statement...........................................    15
    Biographical information.....................................    16

Hatch, Hon. Orrin G.:
    Opening statement............................................     1
    Prepared statement...........................................    20

Lopez, Rafael J.:
    Testimony....................................................     8
    Prepared statement...........................................    21
    Biographical information.....................................    23
    Responses to questions from committee members................    31

Wall, Anne Elizabeth:
    Testimony....................................................     6
    Prepared statement...........................................    36
    Biographical information.....................................    37
    Response to a question from Senator Cantwell.................    41

Wyden, Hon. Ron:
    Opening statement............................................     3

                                 (iii)
 
   NOMINATIONS OF ANNE ELIZABETH WALL, TO BE DEPUTY UNDER SECRETARY,

  DEPARTMENT OF THE TREASURY; BRODI L. FONTENOT, TO BE CHIEF FINANCIAL
    OFFICER, DEPARTMENT OF THE TREASURY; AND RAFAEL J. LOPEZ, TO BE
     COMMISSIONER, ADMINISTRATION ON CHILDREN, YOUTH, AND FAMILIES,

                       DEPARTMENT OF HEALTH AND 
                             HUMAN SERVICES

                              ----------                              


                        THURSDAY, APRIL 23, 2015

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:20 p.m., 
in room SD-215, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch (chairman of the committee) presiding.
    Present: Senators Crapo, Wyden, Cantwell, and Brown.
    Also present: Republican Staff: Chris Campbell, Staff 
Director; Mark Prater, Deputy Staff Director and Chief Tax 
Counsel; Becky Shipp, Health Policy Advisor; and Nicholas 
Wyatt, Tax and Nominations Professional Staff Member. 
Democratic Staff: Laura Berntsen, Senior Advisor for Health and 
Human Services; and Anderson Heiman, International 
Competitiveness and Innovation Advisor.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
              UTAH, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The committee will come to order.
    The committee is considering three nominations for posts at 
the Treasury Department and Department of Health and Human 
Services. I apologize for being late; we had a very important 
vote over in the Senate.
    These positions are important, and I will discuss them 
specifically in a few minutes. But since this is our first 
nomination hearing in the 114th Congress, I want to reiterate 
some information on how this committee processes nominations.
    In this new Congress, the Finance Committee will continue 
to use the same basic procedures for processing nominations 
that we have followed in the past, a process that, except in 
very rare circumstances, has always been bipartisan. I intend 
to see that it continues that way.
    Let me say that I believe the President is entitled to have 
the people he wants working in this administration, so long as 
there are no ethical or significant issues in their background. 
And, by the way, that is why I am late, because I very strongly 
supported the President's nominee for Attorney General of the 
United States, who did pass 56 to 43.
    While I respect the President's right to nominate people of 
his choosing, the President also needs to respect the 
constitutional advice and consent role of the U.S. Senate. It 
is a very, very important part of our role up here, as well as 
this committee's part in that overall process.
    On that issue, I want to highlight some guidelines that 
then-Majority Leader Reid put into the Congressional Record on 
January 20, 2009. The document that he asked to be printed in 
the Record was titled, ``Employment Guidelines for Potential 
Presidential Appointments in Some Cabinet Positions.''
    Now, I am not going to go through the full document here, 
but it concerns the common practice of presidential nominees 
being brought on as advisors or counselors in agencies where 
they have been nominated to serve while their nominations are 
being processed.
    I refer to these guidelines because I want to make it clear 
that, while a nominee may do certain activities in these 
advisory positions, they may not take on responsibilities 
related to policymaking or representing the administration. I 
expect all nominees, and particularly those being processed 
through this committee, to respect these boundaries and respect 
the constitutional role of the Senate and this committee.
    By most accounts, I am a pretty reasonable guy. I do not 
think we have mistreated any of the nominees who have come 
through the Finance Committee or subjected them to any 
unnecessary delays. And like I said, while our procedures for 
moving nominations through the committee may be rigorous, they 
are bipartisan, and I believe them to be fair. So, I hope the 
administration will acknowledge that and work within the proper 
guidelines going forward.
    With that out of the way, I want to thank the three 
nominees for appearing here today. First, we will hear from 
Anne Elizabeth Wall, who, if confirmed, will serve as Assistant 
Secretary for Legislative Affairs at the Treasury Department. 
The person in this position will deal with this committee on a 
regular basis and has the important job of facilitating 
communication between the Treasury Department and Congress.
    On that topic, I would like to say up front that it is very 
important to me that requests for information submitted to the 
Treasury Department, whether they come from me or from any 
other members, are responded to in a fulsome and timely manner.
    Too often, the responses we receive from the Treasury are 
not all that informative, and that is if we receive responses 
at all. For example, Secretary Lew testified on the President's 
budget request on February 5th, more than 2 months ago, and the 
committee still has not received answers to questions we 
submitted to the Secretary in writing. The same is true for IRS 
Commissioner Koskinen, who testified on February 3rd.
    My hope, Ms. Wall--and we will talk about this more today--
is that you will commit to improving the lines of communication 
between Treasury and this committee.
    Next, we will hear from Brodi L. Fontenot. That is a pretty 
fancy name, I will tell you. [Laughter.]
    He has been nominated to be Chief Financial Officer of the 
Treasury Department. This is an especially important position 
in an environment of scarce resources and short-term continuing 
resolutions. Mr. Fontenot brings a wealth of experience, 
including time at the Department of Transportation, with 
managing a large Federal workforce and balancing multiple 
critical priorities.
    The committee will also hear from Rafael J. Lopez, nominee 
for Commissioner on Children, Youth, and Families in the 
Department of Health and Human Services. Now, this is a 
critical position, as I view it, that oversees programs dealing 
with the most vulnerable among us. The Senate Finance Committee 
has been extremely productive in crafting bipartisan, bicameral 
legislation aimed at improving outcomes for vulnerable children 
and families.
    In my time as a senior Republican on this committee, we 
have produced two major bills that were enacted into law, 
making improvements to foster care and adoption assistance. 
When Senator Grassley was chairman and ranking member, the 
committee reported several bipartisan bills as well that made 
improvements to child welfare.
    I am committed to continuing this bipartisan effort to 
improve the lives of vulnerable children, youth, and families. 
I hope that, if confirmed, Mr. Lopez, you will be an active and 
engaged partner in these endeavors. I am serious about that, 
and I hope that we can really work together in the best 
interests of our young people and children in this society.
    I want to thank you all for being here today and for your 
willingness to serve.
    I am very grateful to have Ron Wyden as my counterpart here 
on the Finance Committee, and we will turn to him at this time.
    [The prepared statement of Chairman Hatch appears in the 
appendix.]

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman. It feels like we 
have not been away from the committee for much longer than 
about 15 minutes, given the fact that we were here well into 
the evening. I want to commend you again for that bipartisan 
mark-up.
    The Chairman. Likewise, you.
    Senator Wyden. Thank you.
    Senator Cantwell. Senator Wyden, I want to commend you as 
well. I wonder why Treasury would send anyone here today after 
Mr. Daws had to sit here last night and answer all our 
questions. [Laughter.]
    Sorry to interrupt, but last night got cut off short, and I 
did want to thank both of you and the staff for your tremendous 
leadership on getting that legislation out. We did not have the 
normal closing process, so a lot of us did not have a chance to 
give accolades on the hard work and perseverance. So I just 
want to say ``thank you very much'' to both of you.
    The Chairman. Thank you.
    Senator Wyden. Well, thank you, Senator Cantwell. Everyone 
on this committee understands that nobody knows more about what 
it is going to take to strengthen America's place in the global 
economy than Senator Cantwell, and I thank you for those very, 
very kind words.
    Let me also say, while we are on the subject of bouquets: 
Chairman Hatch, thank you for the excellent work on Loretta 
Lynch. There is no question that there were votes that she won 
today because of your leadership, and I just want to thank you 
for that as well.
    The Chairman. Thank you. Thank you so much.
    Senator Wyden. This afternoon, the Finance Committee is 
going to consider three nominees for key posts in the 
administration: Anne Wall, Brodi Fontenot, and Rafael Lopez. 
All of them, in my view, are at the top of their class and top 
of their fields, and they are going to be needed to help the 
administration take on a range of pressing issues.
    The first is Anne Wall. She is nominated to be Deputy Under 
Secretary for Legislative Affairs at the Treasury Department. 
She is going to play a critical role in ensuring that the 
Congress and the Treasury are able to communicate and work 
together effectively on an array of issues. I want it 
understood at the outset, and I probably have to leave here 
fairly shortly, I think Anne Wall is going to do a first-rate 
job there.
    She is clearly ideally suited for the position, having 
served in a number of roles with our colleague Senator Durbin 
and as a congressional liaison for the White House. She knows 
her way around both ends of Pennsylvania Avenue and how to help 
find common ground.
    Next is Brodi Fontenot, nominated to be the Chief Financial 
Officer for the Treasury Department. As CFO, he is going to 
manage the Department to ensure that it maximizes its 
efficiency in several areas, and that is a tall order for a 
department of 100,000 men and women. He has already 
demonstrated that he is up to the task in a similar role at the 
Department of Transportation, where he is currently the 
Assistant Secretary.
    Prior to joining the Department of Transportation, he 
served on the Senate Budget Committee and at the Government 
Accountability Office. Our former colleague, Senator Conrad, 
has very high praise for the nominee's work. If you are getting 
Kent Conrad around here to sing your praises, you are, so to 
speak, running with the right crowd, and we commend you for it.
    The Chairman. He is a good guy.
    Senator Wyden. And I also want to note, Mr. Fontenot is 
married to a Finance Committee Health Staff alum, Yvette 
Fontenot. So we have----
    The Chairman. Well, I do not know if we can allow that.
    Senator Wyden. You are going to pull the brake? I retract 
the statement. [Laughter.]
    It is obvious the committee has a history of being fans of 
the Fontenot family, and we are very pleased that you are here.
    Now, in addition to the Treasury nominees, we will be 
considering the nomination of Rafael Lopez. He is nominated to 
be the Commissioner on Children, Youth, and Families at the 
Department of Health and Human Services. He has a very 
extensive background in the nonprofit and public sectors, with 
a special focus on children and families.
    If confirmed for this new role, Mr. Lopez would oversee a 
number of critical programs to ensure that kids have the 
services and protection they need for a safe and stable 
childhood. Mr. Lopez has his work cut out for him, given the 
ongoing implementation of a bill that Senator Hatch and I 
authored that was signed into law in September, the Preventing 
Sex Trafficking and Strengthening Families Act. That new law 
focuses on ensuring that kids in foster care are given the same 
support and ability to make permanent, positive connections as 
all kids. I am very interested in working with Chairman Hatch 
to follow up in that regard.
    Mr. Lopez, what I was struck by as we got into this is 
that, for example, if a youngster runs away or gets lost in an 
affluent neighborhood, it seems like the whole neighborhood is 
out en masse, literally hundreds of people in a matter of 
hours, trying to find that youngster. We know that if we lose a 
youngster in the foster care system, nobody is going to know, 
or perhaps hardly anybody is even going to care for a long, 
long time. You are charged with ending that kind of double 
standard for America's youngsters, and Chairman Hatch and I are 
very much committed to working with you in that regard.
    So, Chairman Hatch, thank you. I look forward to our 
nominees.
    The Chairman. Well, thank you. Thank you, Senator. I 
appreciate it.
    Before each of you gives your testimony, I want to give 
each of you the opportunity to introduce friends or family who 
are in the audience today. Ms. Wall, let us start with you and 
then work down the panel.
    Ms. Wall. Thank you, Mr. Chairman. My parents, Mike and 
Liz, are here with me today----
    The Chairman. Welcome.
    Ms. Wall [continuing]. And my DC family, the Smith family.
    The Chairman. Well, that is great. We are really happy to 
have you all here with us.
    Mr. Fontenot?
    Mr. Fontenot. Thank you, sir. My wife Yvette is here, and 
my three children, Hazel, August, and Evangeline. And also my 
mother-in-law is here, Dr. Shenouda.
    The Chairman. That is great. Mom, you have to watch over 
him, I can see that. [Laughter.]
    That is just great.
    Senator Wyden. They are better behaved than my children. 
[Laughter.]
    The Chairman. Or mine. Of course, mine are now in their 
50s. [Laughter.] Almost all of them.
    Mr. Lopez?
    Mr. Lopez. Yes. Thank you, Senator Hatch. I have with me 
today my mother, Maria Lopez, my wife, Rosa Ramirez-Lopez, and 
my two sons, Adan Miguel and Mateo Gabriel. Some of our chosen 
family members, Steven Shapiro and Sandy Starr, are here as 
well.
    The Chairman. Great. Well, we are happy to welcome all of 
you to this hearing here today. We are grateful that you would 
take time from your schedules to be here. Thank you.
    Your prepared statements will be printed in the hearing 
record, but each of you will have 5 minutes to summarize.
    Ms. Wall, let us have you go ahead and give your testimony, 
then we will turn to Mr. Fontenot, then finally Mr. Lopez.

STATEMENT OF ANNE ELIZABETH WALL, NOMINATED TO BE DEPUTY UNDER 
     SECRETARY, DEPARTMENT OF THE TREASURY, WASHINGTON, DC

    Ms. Wall. Thank you, Chairman Hatch, Ranking Member Wyden, 
Senator Cantwell, members of the committee. I appreciate the 
opportunity to be here in the Senate and to appear before the 
Senate Finance Committee. It is always nice to come back to a 
place that feels like a second home, and a humbling honor to be 
seated at this table before you after several years sitting 
alongside the hardworking staff behind you.
    I especially want to thank you and your staff for 
considering my nomination. I am sincerely grateful to President 
Obama for nominating me to serve as Assistant Secretary for 
Legislative Affairs at the Department of the Treasury, and for 
Secretary Lew for recommending me to this position.
    I have had the privilege of serving as counselor to 
Secretary Lew and cannot be more excited to continue to work in 
this new role, if confirmed, with the talented, professional, 
intelligent, and dynamic staff of the Treasury Department.
    I cannot tell you how meaningful it is to have my parents, 
Michael and Liz, here with me today, and I would like to 
recognize my brother Jonathan, who is at home in Chicago. Mr. 
Chairman, like you, he is a musician, so he had music lessons 
to teach back home.
    Their encouragement empowered me as I began what I thought 
would be a brief adventure as a Senate staffer in DC, and 
almost a decade later it is only because of that encouragement, 
as well as their love and support, that I have been able to 
serve in what has already been the professional experience of a 
lifetime.
    As my family and friends know, I try not to stray too far 
from my Chicago roots and strive to live by the values my 
parents instilled in me, and I am thankful they are here today.
    I will also always be grateful to my home State Senator, 
Dick Durbin, who, as Majority Whip, took a chance on a young 
practicing lawyer who moved to Washington without a job but a 
strong desire to learn how government really works. He gave me 
the honor of being part of his remarkable and dedicated staff 
for 5\1/2\ wonderful years.
    It was in that role as part of the leadership staff that I 
spent countless hours on the Senate floor. I learned firsthand 
that, in the U.S. Senate, the U.S. Senate is a place where your 
word is your bond. It is a place where strong friendships and 
relationships can develop, even when you do not agree on 
policy, politics, or process. It is also a place where a sense 
of humor is as valuable as the sense of duty, and I certainly 
try to keep a sense of humor working with offices on Whip 
questions and conversations about Senate procedure.
    I carried my Senate floor experience with me when I joined 
the White House Office of Legislative Affairs, first as Special 
Assistant to the President for Legislative Affairs, and later 
as Deputy Assistant to the President for Legislative Affairs 
and Senate Liaison. Serving President Obama and working with 
his team for 3 years was one of the most special times of my 
life. Contributing to the daily work of the country from the 
other side of Pennsylvania Avenue was uniquely rewarding, and, 
as in the Senate, it is a place where relationships matter.
    In my role as the White House liaison to the Senate, I 
built strong ties with both Republicans and Democrats. 
Together, we kept an open line of communication between the 
legislative and executive branches, a relationship that is 
essential to getting things done.
    If confirmed, I would look forward to ensuring that there 
is an honest dialogue between the Treasury Department and the 
Congress. You can count on me to be responsive and respectful, 
to be candid and clear, and to do my best to accurately 
represent the views of the Department of Treasury and the 
administration to this committee and to Congress. And in turn 
you can count on me to make sure that your views are shared and 
respected at the Department of Treasury.
    Thank you again for your consideration, and I look forward 
to responding to your questions.
    The Chairman. Thank you, Ms. Wall.
    [The prepared statement of Ms. Wall appears in the 
appendix.]
    The Chairman. Mr. Fontenot?

STATEMENT OF BRODI L. FONTENOT, NOMINATED TO BE CHIEF FINANCIAL 
      OFFICER, DEPARTMENT OF THE TREASURY, WASHINGTON, DC

    Mr. Fontenot. Chairman Hatch, Ranking Member Wyden, 
distinguished members of the committee, I am honored to have my 
nomination come before you today. I am grateful to President 
Obama and Secretary Lew for asking me to serve the Department 
of the Treasury.
    I also want to thank your staff for meeting with me to 
discuss management issues and my qualifications for this 
position. I also want to acknowledge, in addition to my wife 
and my family, my brother and my sister-in-law, Nigel and Becca 
Fontenot, as well.
    I was raised in Baton Rouge, LA and pursued my bachelor's 
degree in Houston, TX. My public service began after college in 
AmeriCorps, serving those affected by various disasters. After 
finishing my master's in public administration at the 
University of North Carolina, I came to Washington and began my 
career as an analyst at the now-Government Accountability 
Office.
    For 5 years at GAO, I worked on a variety of issues, 
reviews of government programs for different congressional 
components, and learned the true value of analysis, assessment, 
and accountability when it comes to public programs funded by 
the American taxpayer.
    I left GAO for an opportunity to work for your former 
colleague, Senator Kent Conrad, on the Senate Budget Committee. 
I spent the next 3 years gaining a true appreciation for the 
intricacies and importance of the Federal budget process and a 
reverence for this institution and the role it plays. It was a 
privilege to be able to spend time on the Senate floor and 
experience first-hand the deliberations of its members.
    For more than 5 years now I have served President Obama, 
first at the Department of Transportation as the Deputy 
Assistant Secretary for Management and Budget in the Office of 
the Chief Financial Officer, and as Assistant Secretary for 
Administration. For the past 3 months, I have served the 
Department of Treasury as the Assistant Secretary for 
Management.
    Throughout all these varied roles, I have learned the 
significant role government can play in people's lives. I 
strive to properly and efficiently manage government operations 
and resources and to enhance the quality of service provided to 
the American people.
    As part of that effort, I introduced the concept of using 
performance and management information at the highest levels of 
the Department of Transportation to guide its actions. In 
addition, as Senior Sustainability Officer at the Department of 
Transportation, I introduced and executed strategies that 
reduced the Department's petroleum usage and increased the use 
of alternative fuels. In all cases, I led teams of career 
senior executives and talented staff and marveled at their 
ability to achieve results under the challenging courses we 
set.
    At the Department of the Treasury, I will continue to 
engage our career leaders and ensure that they have the tools 
and resources they need to successfully serve the public and to 
be responsive to our many stakeholders.
    I am humbled and honored to have the possibility of serving 
the Nation in this new capacity, should I be confirmed. If you 
and your colleagues in the Senate give me the opportunity to 
serve as Chief Financial Officer, I will apply myself fully to 
the best of my ability to justify your trust and confidence.
    Thank you for allowing me to appear before you today, and I 
would be pleased to answer your questions.
    The Chairman. Well, thank you very much.
    [The prepared statement of Mr. Fontenot appears in the 
appendix.]
    The Chairman. Mr. Lopez?

  STATEMENT OF RAFAEL J. LOPEZ, NOMINATED TO BE COMMISSIONER, 
ADMINISTRATION ON CHILDREN, YOUTH, AND FAMILIES, DEPARTMENT OF 
           HEALTH AND HUMAN SERVICES, WASHINGTON, DC

    Mr. Lopez. Chairman Hatch, Ranking Member Wyden, and 
honorable members of the committee, thank you for inviting me 
to discuss my nomination. It is an honor to have been nominated 
by President Obama and to be considered by the Senate Committee 
on Finance.
    This committee has done extraordinary things for the 
American people, from expanding health insurance coverage to 
children through the Children's Health Insurance Program, to 
seeking normalcy for children in foster care. If confirmed, I 
look forward to working with each of you and your staffs toward 
our shared goals of protecting and empowering the Nation's most 
vulnerable children, youth, and families.
    I have already had the opportunity to introduce family 
members present here in the chambers with us, but I would like 
to take a moment to thank family and friends who are unable to 
be here today and join us from afar. Their love and support 
means the world to me.
    Now I would like to tell you a piece of my own family's 
history. My mother never finished the second grade in her rural 
town near Poncitlan, Jalisco, Mexico. She left school as a 
little girl to help support her family, cooking, sewing, and 
cleaning in another family's home. She eventually followed her 
dad to the United States as a migrant farm worker and cannery 
worker, finally settling in Watsonville, CA, where I was born 
and raised.
    If you have ever eaten a Driscoll's strawberry or raspberry 
or blackberry, it is likely that it came from Watsonville. If 
you have ever sipped Martinelli's apple cider, then you have 
tasted my home town. Leafy greens, vegetables, flowers, and 
fruits are all grown and picked by the hands of farm workers 
just like my mother's.
    But my mother wanted a different life for me, my sister, 
and my two brothers. Whether in the fields or in the canneries, 
as a nanny, house cleaner, dishwasher, or cook, my mother 
taught us the value of hard work. She taught us to sacrifice 
and to believe in yourself. She is a survivor of a tough life 
and our abusive father, whom she eventually left behind.
    As a family, we struggled to make ends meet, even though we 
all worked so hard. There were nights when things became so 
violent that we would run to the homes of neighbors willing to 
take us in. For years I was embarrassed and ashamed at the 
thought of strangers finding out just how much our family 
struggled. It took me years to realize that our family was not 
alone, and that is why I share part of our family's story with 
you here today.
    Alcoholism, abuse, mental health, violence, and poverty are 
not private matters. They are public matters that cross 
geographic, class, racial, and cultural boundaries. They are 
matters that require our best thinking, collective action, and 
willingness to work together.
    Even in our darkest hours, my mother focused our attention 
on the future, and, thanks to her unconquerable spirit and work 
ethic, she helped me become the first in our immediate family 
to graduate from high school. I became the first in our family 
to graduate from college, the first to earn a graduate degree, 
the first to work for the President of the United States, and 
the first to testify before the U.S. Senate Committee on 
Finance.
    I share all this with you to honor my mother as the true 
hero that she is and to enter a piece of our history into the 
public record. I tell you all this because we did not do it on 
our own. Neighbors, public school teachers, librarians, social 
workers, counselors, mentors, and more--they all helped.
    My commitment to public service was shaped by my early 
experiences and has remained rooted in the belief that every 
child and every family deserves a fair opportunity to reach 
their God-given potential, regardless of the life or 
circumstances into which they are born. I was once a client of 
programs administered by HHS, and, while no one program is 
perfect, I know they change lives because they changed my 
family's.
    As a Senior Policy Advisor in the White House Office of 
Science and Technology and the Domestic Policy Council, I 
worked to improve relationships between the administration and 
nonprofit and philanthropic organizations to strengthen 
domestic policies and social programs. We rely on the best 
available data, science, technology, and evidence-based 
interventions to promote the social and emotional well-being of 
children, youth, and families.
    With the Annie E. Casey Foundation, a private national 
philanthropy, I had the honor and opportunity to help develop a 
brighter future for millions of children at risk of poor 
education, economic, social, and health outcomes in the United 
States, and, as President and CEO of the Family League of 
Baltimore City, a nonprofit organization there, I helped launch 
several programs, including the B'More for Healthy Babies 
Initiative, which led to a 19-percent reduction in infant 
mortality in the first year.
    We worked with Maryland's Juvenile Court and negotiated the 
State of Maryland contract commitment to expand a family 
recovery program, where we helped families reunify with their 
court-removed children by providing substance abuse treatment, 
mental health services, and supportive housing. As a founding 
Executive Director of First Five in Santa Cruz County, we 
launched the first-ever universal health care program to serve 
all children in the county.
    Public service has been my life, and I have worked hard to 
develop the skills, relationships, and experiences I need to be 
the most able champion of children, youth, and families in 
need, regardless of the challenges they face.
    At every step along the way, the use of data, science, and 
results has driven my strategy. I have worked to build teams 
that value excellence, transparency, and accountability. 
Whether engaging diverse partners to improve educational 
outcomes for our Nation's foster children or using tech 
solutions to hack our way to more efficient services for young 
people by using smartphones, I plan to bring whatever 
innovative tools and resources we can rally.
    Whether helping the Nation's LGBTQ runaways and homeless 
youth find loving homes who respect and accept them for who 
they are, or working to ensure that families receive the 
emergency shelter they deserve when fleeing from domestic 
violence, I will work tirelessly to engage the partners we 
need.
    This month is National Child Abuse Prevention Month. The 
work of raising our children and youth is the most important 
job in our country, and it will take every one of us to renew 
our commitment to protect the safety and well-being of our 
children and youth and the families who care for them.
    As a father of two boys, I can attest to the fact that it 
is the single hardest and most glorious job I have ever had. 
Our children, youth, and families are our greatest renewable 
resources, and when we respect, honor, and invest in them, we 
invest in us.
    Mr. Chairman, Ranking Member Wyden, and honorable members 
of the committee, thank you again for the invitation to speak 
with you today. I have never shied away from hard work, and, if 
confirmed, I am ready to roll up my sleeves and work with you. 
American's children, youth, and families deserve nothing less.
    With that, I would be pleased to answer your questions. 
Thank you.
    The Chairman. Well, thank you so much.
    [The prepared statement of Mr. Lopez appears in the 
appendix.]
    The Chairman. First, I have some obligatory questions I am 
going to ask all the nominees.
    Is there anything that you are aware of in your background 
that might present a conflict of interest with the duties of 
the office to which you have been nominated? Ms. Wall?
    Ms. Wall. No.
    The Chairman. No. Mr. Fontenot, no?
    Mr. Fontenot. No.
    Mr. Lopez. No.
    The Chairman. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Wall. No.
    Mr. Fontenot. No.
    Mr. Lopez. No.
    The Chairman. All right.
    Do you agree, without reservation, to respond to any 
reasonable summons to appear and testify before any duly 
constituted committee of Congress, if you are confirmed?
    Ms. Wall. Yes.
    Mr. Fontenot. Yes.
    Mr. Lopez. Yes.
    The Chairman. All right.
    Finally, do you commit to provide a prompt response, in 
writing, to any questions addressed to you by any Senator of 
this committee?
    Ms. Wall. Yes.
    Mr. Fontenot. Yes.
    Mr. Lopez. Yes.
    The Chairman. I hope you will, because you will be 
exceptions to the rule. Do not take that too seriously now, but 
we would like you all to be responsive to the committee. This 
committee has always been run very well, but we are going to 
make sure that we follow up on these things.
    Ms. Wall, this is a common complaint, but it definitely 
bears repeating. It is very important that this committee's 
requests to the Treasury Department are responded to quickly 
and fully. It seems that we only get information when there is 
some sort of pressure point, such as a nomination hearing.
    In February, both Secretary Lew and Commissioner Koskinen 
testified before this committee on the President's fiscal year 
2016 budget. Now it is more than 2 months later, and we have 
not received any responses to written questions. These are 
written questions sent after that hearing.
    Aside from being frustrating, this lack of responsiveness 
ensured we would not use this additional input from the 
administration when the Senate considered a budget resolution.
    Assuming you are confirmed, how are you going to change 
this pattern of some sort of pressure being necessary to get 
information from the Treasury Department?
    Ms. Wall. Mr. Chairman, if confirmed, I want you to know 
that I take very seriously the need to be responsive to this 
committee, and all members of Congress, so I will do my best to 
work with Department staff to try to get accurate responses as 
quickly as possible.
    One thing we discussed with your staff was setting up a 
weekly call to check in on outstanding pending matters, which 
may be a nice check to make sure we are staying on task at the 
Department, and also being responsive to your requests.
    The Chairman. Well, that is good. I appreciate that.
    Mr. Lopez, I welcome you to the committee, and I want to 
thank you for appearing before this committee.
    Last year, the Congress enacted, and the President signed, 
legislation to address the issue of children and youth in 
foster care being sexually trafficked while in care. Now, I am 
pleased that the new law incorporates a number of provisions I 
introduced, entitled the IOYouth bill.
    As you know, a major risk factor making children and youth 
in foster care susceptible to domestic sex trafficking and 
other negative outcomes is a continued reliance on group homes. 
These homes are routinely targeted by traffickers and are often 
warehouses for youth who are rarely, if ever, allowed to engage 
in healthy age-appropriate activities and social events.
    My bill would have re-focused Federal priorities by 
eliminating Federal matching funds for non-family foster homes 
for all children 12 years and younger. This bill would have 
eliminated Federal funds for youth age 13 and older after 1 
year of consecutive time spent in a non-family foster home or 
18 months non-consecutive care spent in a non-family foster 
home, whichever comes first.
    Now, while this provision was not enacted into law last 
year, I continue to have serious concerns about the over-
reliance on group homes in our foster care system. Do you share 
those concerns?
    Mr. Lopez. Thank you for the question, Chairman Hatch. Yes, 
I absolutely share those concerns. Quite frankly, the science 
and common sense tell us that children and youth should be 
raised in families. Children and youth need to have the loving 
attention, the relationships, and the supportive environment 
that they deserve in order to live up to their full potential 
and live their lives.
    Congregate group settings are not always the best places 
for children. They should be a rare exception. They should be a 
place where, if and when a State or a local jurisdiction has to 
remove a child from their home, the time that the child or 
youth spends in that particular congregate care setting is very 
minimal.
    Unfortunately, the data does not always support that. 
Bottom line: children deserve to grow up with a loving family. 
Every child deserves a forever family, and congregate youth 
care should be absolutely minimally used.
    The Chairman. Well, thank you. I appreciate these answers, 
Mr. Lopez. It means a lot to me to have somebody like you who 
cares enough to be in these areas, working on these issues.
    Mr. Fontenot, let me just ask you this question. A common 
issue confronting the Federal workforce is the loss of 
institutional knowledge as employees with critical information 
retire. Now, a December 2014 Washington Post story noted that 
``the share of the Federal workforce under the age of 30 
dropped to 7 percent this year, the lowest figure in nearly a 
decade, government figures show.''
    Now, how can the Federal Government adapt to attract 
qualified applicants, and how can we improve what is really a 
frequent and cumbersome and confusing hiring process?
    Mr. Fontenot. Thank you for your question. I was the Chief 
Human Capital Officer at the Department of Transportation, and 
one of the obviously critical areas there was the workforce 
that works on essentially planes, trains, and automobiles.
    I think one of the most effective strategies is workforce 
planning, really having a plan to really understand what your 
attrition rate will be, and to really hire for these specific 
skill sets, but obviously, of course, planning to look out into 
the future. We did undertake that in some of our mission-
critical occupation planning. I know the administration is also 
doing that in several of its occupation plans.
    The Chairman. Well, let me turn to--well, there is nobody 
else here. [Laughter.]
    I see empty chairs here. You guys are really having an easy 
time here, you know. [Laughter.]
    First of all, I am a pushover. The really nasty people are 
not here at all. No, we do not have any nasty people on this 
committee.
    Let me just say that I am really pleased with your 
appointments. You are really good people. I congratulate the 
President and those who serve with him for nominating you 
folks. It is pleasing to me that you want to work in the 
Federal Government, and it would be even more pleasing if you 
will really work in the Federal Government when you get these 
jobs. I have no doubt that the three of you will be wonderful 
employees in our Federal system.
    So let me just say, I support all three of you. I did 
before you even spoke, which is a bad thing to do, I know, but 
I am just that way.
    I want to once again thank the nominees for appearing here 
today. I also want to thank Senator Wyden for the help that he 
gives on this committee. He is doing a great job, and I 
appreciate it.
    If we have any questions for the record, they should be 
submitted no later than Monday, April 27th. If you will, get 
the answers back as quickly as you can. I doubt there will be 
any, but if there are, get them back as quickly as you can, 
because we would like to process your nominations as fast as we 
can.
    So with that, we are going to adjourn this hearing and let 
you all go, and let your families go. I know these sometimes 
seem like they are worrisome things, but not on this committee, 
unless you really deserve it. [Laughter.]
    We are grateful to have you all here. Thanks for appearing, 
and thanks for answering the questions that I have asked.
    There is nobody else here. All right. Then with that, we 
will recess until further notice. Thank you.
    [Whereupon, at 2:55 p.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


 Statement of Brodi L. Fontenot, Nominee for Chief Financial Officer, 
                       Department of the Treasury
    Chairman Hatch, Ranking Member Wyden, distinguished members of the 
Committee, I am honored to have my nomination come before you today. I 
am grateful to President Obama and Secretary Lew for asking me to serve 
at the Department of the Treasury. I also want to thank your staff for 
meeting with me to discuss management issues and my qualifications for 
the position for which I have been nominated.

    I am particularly grateful to my wife of 9 years, Yvette, and to 
our children, Hazel (7), August (5) and Evangeline (3), for their 
support and willingness in allowing me to continue to serve in 
government with all its attendant sacrifices. Yvette, an alumnus of 
this Committee's staff, continues her work of increasing access to 
health care for Americans, and Hazel, August and Evangeline continue to 
grow and are becoming more independent by day.

    I was raised in Baton Rouge, Louisiana and pursued my bachelor's 
degree in Houston, Texas. My public service began after college in 
AmeriCorps serving those affected by various disasters. After finishing 
my Masters in Public Administration at the University of North 
Carolina, I came to Washington and began my career as an analyst at the 
now Government Accountability Office. For 5 years at the GAO, I worked 
on a variety of reviews of government programs for different 
Congressional components and learned the true value of analysis, 
assessment and accountability when it comes to public programs funded 
by the American taxpayer.

    I left GAO for an opportunity to work for your former colleague 
Senator Kent Conrad on the Senate Budget Committee. I spent the next 3 
years gaining a true appreciation of the intricacies and importance of 
the federal budget process and a reverence for this institution and the 
important role it plays. It was a privilege to be able to spend time on 
the Senate floor and experience first-hand the deliberations of its 
members.

    For more than 5 years now, I have served President Obama first at 
the Department of Transportation as the Deputy Assistant Secretary for 
Management and Budget in the office of Chief Financial Officer and as 
the Assistant Secretary for Administration. For the past 3 months, I 
have served at the Department of the Treasury as the Assistant 
Secretary for Management.

    Throughout all of these varied roles, I have learned the 
significant role government can play in people's lives. I strive to 
properly and efficiently manage government operations and resources to 
enhance the quality of service provided to the American people. As part 
of that effort, I introduced the concept of using performance and 
management information at the highest levels of the Department of 
Transportation to guide actions. In addition, as Senior Sustainably 
Officer at DOT, I introduced and executed strategies that reduced the 
Department's petroleum usage and increased the use of alternative 
fuels. In all cases, I led teams of career Senior Executives and 
talented staff and marveled at their ability to achieve results under 
the challenging course we set.

    At the Department of the Treasury, I will look to continue to 
engage our career leaders and ensure they have the tools and resources 
they need to successfully serve the public and to be responsive to our 
many stakeholders.

    I am humbled and honored to have the possibility of serving the 
nation in this new capacity should I be confirmed. If you and your 
colleagues in the Senate give me the opportunity to serve as Chief 
Financial Officer for the United States Department of the Treasury, I 
will apply myself fully to the best of my ability to justify your trust 
and confidence.

    Thank you for allowing me to appear before you today. I would be 
pleased to answer any questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

1. Name (include any former names used):  Brodi Lin Fontenot

2.  Position to which nominated:  Chief Financial Officer, Department 
of the Treasury

3. Date of nomination:  February 12, 2015

4. Address (list current residence, office, and mailing addresses):

5. Date and place of birth: October 5, 1976, Baton Rouge, LA

6. Marital status (include maiden name of wife or husband's name):

7. Names and ages of children:

8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):


------------------------------------------------------------------------
        University            Degree Awarded         Dates Attended
------------------------------------------------------------------------
The University of North     M.P.A.             August 1999-May 2001
 Carolina at Chapel Hill                        (degree awarded 2001)
The University of Houston   B.A., History      August 1994-May 1998
                            (Cum Laude)         (degree awarded 1998)
------------------------------------------------------------------------


9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):


------------------------------------------------------------------------
    Employer          Location            Title        Employment Dates
------------------------------------------------------------------------
U.S. Department   1500              Assistant         January 2015-
 of the Treasury   Pennsylvania      Secretary for     Present
                   Ave., NW,         PManagement
                   Washington, DC
------------------------------------------------------------------------
U.S. Department   1200 New Jersey   Assistant         July 2012-January
 of                Ave, NW,          Secretary for     2015
 PTransportation   Washington, DC    PAdministration
                                    Deputy Assistant  September 2010-
                                     Secretary for     July 2012
                                     Administration/
                                     Acting
                                     Assistant
                                     Secretary for
                                     Administration
                                    Deputy Assistant  July 2009-
                                     Secretary for     September 2010
                                     Management and
                                     Budget
------------------------------------------------------------------------
United States     U.S. Senate,      Budget Analyst    August 2006-July
 Senate            Washington, DC    for               2009
 PCommittee on                       Transportation,
 the Budget                          Veterans'
                                     Affairs, and
                                     Commerce and
                                     Housing Credit
------------------------------------------------------------------------
United States     441 G St., NW,    Senior Analyst    August 2001-August
 Government        Washington, DC    and Analyst       2006
 Accountability
 Office
------------------------------------------------------------------------
The University    Chapel Hill, NC   Graduate          August 2000-August
 of North                            Assistant         2001
 Carolina at
 Chapel Hill
------------------------------------------------------------------------
American Museum   Central Park      Graduate Intern   May 2000-July 2000
 of Natural        West at 79th
 History           Street, New
                   York, NY
------------------------------------------------------------------------
The University    Chapel Hill, NC   Graduate          August 1999-May
 of North                            Assistant (part   2000
 Carolina at                         time)
 Chapel Hill
------------------------------------------------------------------------
AmeriCorps--Amer  Baton Rouge, LA   National Rapid    June 1998-August
 ican Red Cross                      Response Corps    1999
                                     Member
------------------------------------------------------------------------


10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State or local 
governments, other than those listed above):

     None

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

     None

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

     Delta Chi Fraternity (University of Houston):
        --Member, 1997-1998
        --Treasurer, 1997-1998

13.  Political affiliations and activities:

     a. List all public offices for which you have been a candidate:

        None

     b.  List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years:

        None

     c.  Itemize all political contributions to any individual, 
campaign organization, political party, political action committee, or 
similar entity of $50 or more for the past 10 years:


------------------------------------------------------------------------
                         Committee                             Amount
------------------------------------------------------------------------
Obama for America                                                  $250
Mizeur-Coates for Maryland                                         $250
------------------------------------------------------------------------


14.  Honors and Awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

      National Achievement Scholar, 1994

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

      -- Hurricanes Katrina and Rita: Coordination Between FEMA and the 
Red Cross Could Be Improved for the 2006 Hurricane Season (GAO-06-712)

      -- Alaska Native Villages: Recent Federal Assistance Exceeded $3 
Billion, with Most Provided to Regional Nonprofits (GAO-05-719)

      -- Budget Issues: Agency Implementation of Capital Planning 
Principles Is Mixed (GAO-04-138)

      -- Small and Disadvantaged Businesses: Most Agency Advocates View 
Their Roles Similarly (GAO-04-451)

      -- Small and Disadvantaged Businesses: Some Agencies' Advocates 
Do Not Report to the Required Management Level (GAO-03-863)

      -- Federal Trade Commission: Study Needed to Assess the Effects 
of Recent Divestitures on Competition in Retail Markets (GAO-02-793)

      -- Guidebook to Public Dispute Resolution in North Carolina 
(ISBN 1-56011-457-6)

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

    --Why DOT Is One of the Best Places to Work

http://www.govexec.com/excellence/promising-practices/2013/02/why-dot-
one-best-places-work/61184/

http://www.dot.gov/fastlane/dot-stb-fhwa-earn-nods-best-places-work

http://www.businessofgovernment.org/blog/business-government/next-four-
years-managing-balancing-act

    --Sustainability

http://evnewsreport.com/tag/brodi-fontenot/

http://usdotblog.typepad.com/secretarysblog/2013/05/sustainability-
awards-show-dot-going-green-inside-and-out.html

    --Speech at U.S. Chamber of Commerce Foundation on Sustainability

https://twitter.com/rjcrespin/status/463711243988000768

https://twitter.com/USCCFBiz4Good/status/463710735097659393

    --Telework

http://www.mobileworkexchange.com/mobileworker/view/1645

    --Diversity and Inclusion Plan

http://documents.clubexpress.com/
documents.ashx?key=YzV%2BiweOt3FWVkvMsH
c%2FnX1x8Y%2FMM22zxlvA5WHdPfi9C6EmL8p9Alj4%2BXz3NzQdjT9fnl4%2BHis
%3D

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

Having begun my career in AmeriCorps, I learned the importance of 
having a strong infrastructure to confront the very real dangers and 
problems faced by American citizens. While reviewing government 
programs at the Government Accountability Office, I gained an 
appreciation for the fact that effective execution and ongoing 
oversight of impactful programs is one of the most critical roles 
government can perform. In my time as Senate staff, I grew to 
appreciate the importance of rigorous review of budget impact and the 
rule of law created by the legislative branch. In my current leadership 
role in the executive branch, I know firsthand the impact leaders make 
to ensure that our government performs at the highest level possible.

I hope to continue that in my role as Chief Financial Officer of the 
Department of the Treasury and continue to enhance Treasury's use of 
performance and program data to inform investment and budget decisions.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

     Yes

2.  Do you have any plans, commitments, or agreements to pursue outside 
employment, with or without compensation, during your service with the 
government? If so, provide details.

     No

3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

     No

4.  If you are confirmed by the Senate, do you expect to serve out your 
full term or until the next Presidential election, whichever is 
applicable? If not, explain.

     Yes

                   C. POTENTIAL CONFLICTS OF INTEREST

1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

      In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of the Treasury 's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.

2.  Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
posit ion to which you have been nominated.

      In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of the Treasury's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.

3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal government need not be listed.

     None

4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Provide the Committee with two copies of any trust or other 
agreements.)

      In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of the Treasury's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.

5.  Two copies of written opinions should be provided directly to the 
Committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

6.  The following information is to be provided only by nominees to the 
positions of United States Trade Representative and Deputy United 
States Trade Representative:

      Have you ever represented, advised, or otherwise aided a foreign 
government or a foreign political organization with respect to any 
international trade matter? If so, provide the name of the foreign 
entity, a description of the work performed (including any work you 
supervised), the time frame of the work (e.g., March to December 1995), 
and the number of hours spent on the representation.

                       D. LEGAL AND OTHER MATTERS

1.  Have you ever been the subject of a complaint or been investigated, 
disciplined, or otherwise cited for a breach of ethics for 
unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

     No

2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

     No

3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

     No

4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

     No

5.  Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

     None

                     E. TESTIFYING BEFORE CONGRESS

1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

     Yes

2.  If you are confirmed by the Senate, are you willing to provide such 
information as is requested by such committees?

     Yes

                                 ______
                                 
              Prepared Statement of Hon. Orrin G. Hatch, 
                        a U.S. Senator From Utah
WASHINGTON--Senate Finance Committee Chairman Orrin Hatch (R-Utah) 
today delivered the following remarks during a Senate Finance Committee 
considering nominations for the U.S. Departments of Treasury and Health 
and Human Services:

    Today the Finance Committee is considering three nominations for 
posts at the Treasury Department and the Department of Health and Human 
Services.

    These positions are important, and I'll discuss them specifically 
in a few minutes, but since this is our first nomination hearing in the 
114th Congress, I want to reiterate some information on how this 
committee processes nominations.

    In this new Congress, the Finance Committee will continue to use 
the same basic procedures for processing nominations that we have 
followed in the past, a process that, except in very rare 
circumstances, has always been bipartisan.

    Let me say that I believe the President is entitled to have the 
people he wants working in his administration, so long as there are not 
ethical or significant issues in their background. While I respect the 
President's right to nominate people of his choosing, the President 
also needs to respect the constitutional advice and consent role of the 
Senate as well as this committee's part in that overall process.

    On that issue, I want to highlight some guidelines that then-
Majority Leader Reid put into the Congressional Record on January 20, 
2009. The document he asked to be printed in the Record was titled 
``Employment Guidelines for Potential Presidential Appointees in 
Subcabinet Positions.''

    I'm not going to go through the full document here, but it concerns 
the common practice of presidential nominees being brought on as 
advisors or counselors in the agencies where they have been nominated 
to serve while their nominations are being processed. I refer to these 
guidelines because I want to make it clear that, while a nominee may do 
certain activities in these advisory positions, they may not take on 
responsibilities related to policy-making or representing the 
administration. I expect all nominees, and particularly those being 
processed through this committee, to respect these boundaries and 
respect the constitutional role of the Senate and this committee.

    By most accounts, I'm a pretty reasonable guy. I don't think we've 
mistreated any of the nominees who have come through the Finance 
Committee or subjected them to any unnecessary delays. And, like I 
said, while our procedures for moving nominations through the committee 
may be rigorous, they are bipartisan and fair. So, I hope the 
administration will acknowledge that and work within the proper 
guidelines going forward.

    With that out of the way, I want to thank the three nominees for 
appearing here today. First we will hear from Anne Elizabeth Wall, who, 
if confirmed, will serve as Assistant Secretary for Legislative Affairs 
at the Treasury Department. The person in this position will deal with 
this committee on a regular basis, and has the important job of 
facilitating communication between the Treasury Department and 
Congress.

    On that topic, I want to say up front that it is very important to 
me that requests for information submitted to the Treasury Department, 
whether they come from me or from any other members, are responded to 
in a fulsome and timely manner. Too often, the responses we receive 
from Treasury are not at all informative, and that's if we receive 
responses at all. For example, Secretary Lew testified on the 
President's budget request on February 5--more than two months ago--and 
the Committee still has not received answers to questions we submitted 
to the Secretary in writing. The same is true for IRS Commissioner 
Koskinen, who testified on February 3.

    My hope, Ms. Wall, and we'll talk about this more today, is that 
you'll commit to improving the lines of communication between Treasury 
and this committee.

    Next we will hear from Brodi L. Fontenot, nominated to be Chief 
Financial Officer of the Treasury Department. This is an especially 
important position in an environment of scarce resources and short-term 
continuing resolutions. Mr. Fontenot brings a wealth of experience, 
including time at the Department of Transportation, with managing a 
large federal workforce and balancing multiple critical priorities.

    The committee will also hear from Rafael J. Lopez, nominee for 
Commissioner on Children, Youth, and Families and the Department of 
Health and Human Services. This is a critical position that oversees 
programs dealing with the most vulnerable among us.

    The Senate Finance Committee has been extremely productive in 
crafting bipartisan, bicameral legislation aimed at improving outcomes 
for vulnerable children and families. In my time as the senior 
Republican on the committee, we've produced two major bills that were 
enacted into law making improvements to foster care and adoption 
assistance.

    When Senator Grassley was the Chairman and Ranking Member, the 
committee reported several bipartisan bills as well that made 
improvements to child welfare.

    I am committed to continuing this bipartisan effort to improve the 
lives of vulnerable children, youth, and families. I hope that, if 
confirmed, Mr. Lopez will be an active and engaged partner in these 
endeavors.

    Thank you all for being here today, and for your willingness to 
serve.

                                 ______
                                 
Statement of Rafael J. Lopez, Nominee for Commissioner, Administration 
   on Children, Youth, and Families, Department of Health and Human 
                                Services
    Chairman Hatch, Ranking Member Wyden, Honorable Members of the 
Committee, thank you for inviting me to discuss my nomination to serve 
as the Commissioner of the Administration on Children, Youth, and 
Families at the United States Department of Health and Human Services. 
It is an honor to have been nominated by President Obama for this role 
and to be considered by the United States Senate Committee on Finance.

    This Committee has done extraordinary things for the American 
people. From expanding health insurance coverage to children through 
the Children's Health Insurance Program, to seeking normalcy for 
children in foster care, this Committee has left an enduring legacy on 
child and family policy in the United States. If confirmed, I look 
forward to working with each of you and your staffs toward our shared 
goals to protect and empower the nation's most vulnerable children, 
youth, and families.

    I hope you will indulge me as I thank the most important people in 
my life. I am grateful to my wife, Rosa Ramirez-Lopez, my children Adan 
Miguel and Mateo Gabriel, my mother, Maria Concepcion Lopez, and all my 
friends and family here today, as well as those supporting me from 
afar.

    Now, I'd like to tell you a piece of my family's story. My mother 
never finished the second grade in her rural town near Poncitlan, 
Jalisco, Mexico. She left school as a little girl to help support her 
family, cooking, sewing and cleaning in another family's home. She 
eventually followed her dad to the United States as a migrant 
farmworker and cannery worker, finally settling in Watsonville, 
California, where I was born and raised. If you have ever eaten a 
Driscoll's strawberry, raspberry, or blackberry, it is likely that it 
came from Watsonville. If you have ever sipped Martinelli's apple 
cider, then you've tasted my hometown. Leafy greens, vegetables, 
flowers, and fruits, are all grown and picked by the hands of 
farmworkers, just like my mother's.

    But my mother wanted a different life for me, my sister and two 
brothers. Whether in the fields or the canneries, as a nanny, house 
cleaner, dishwasher or cook, my mother taught us the value of hard 
work. She taught us to sacrifice and to believe in yourself even when 
the odds are stacked against you. She is a survivor of a tough life, 
and our abusive father who she eventually left behind. As a family, we 
struggled to make ends meet even though we all worked so hard. There 
were nights when things became so violent that we would run to the 
homes of neighbors willing to take us in in the middle of the night. 
For years, I was embarrassed and ashamed at the thought of strangers 
finding out just how much our family struggled. We were told by many 
that we needed to keep private matters ``in the family.''

    It took me years to realize that our family was not alone. And that 
is why I share a part of our family's story with you here today. 
Alcoholism, abuse, mental health, violence, and poverty are not private 
matters. They are public matters that cross geographic, class, racial, 
and cultural boundaries. They are matters that require our best 
thinking, collective action, and willingness to work together across 
political ideologies.

    According to the Centers for Disease Control and Prevention, on 
average, 24 people per minute are victims of rape, physical violence, 
or stalking by an intimate partner in the United States--more than 12 
million women and men over the course of a year. This does not take 
into account the millions more children who are exposed to, or are 
victims of family violence.

    Even in our darkest hours, my mother focused our attention on the 
future. And thanks to her unconquerable spirit and work ethic, she 
helped me become the first in our immediate family to graduate from 
high school. I became the first person in our family to graduate from 
college and the first to earn a graduate degree. I am the first person 
in my family to work for the President of the United States, and the 
first to testify before the United States Senate Committee on Finance.

    I share all of this with you to honor my mother as the true hero 
that she is, and to enter a piece of our history into the public 
record. I tell you all this because we didn't do it on our own. 
Neighbors, public school teachers, librarians, social workers, 
counselors, mentors, and more. They all helped.

    My commitment to public service was shaped by my early experiences, 
and has remained rooted in the belief that every child and every family 
deserves a fair opportunity to reach their God given potential 
regardless of the life or circumstances into which they are born. I was 
once a client of programs administered by the U.S. Department of Health 
and Human Services. While no one program is perfect, I know they change 
futures, because they changed my family's.

    As a Senior Policy Advisor in the White House Office of Science and 
Technology Policy and with the Domestic Policy Council, I work to 
improve the relationship between the Administration and nonprofit and 
philanthropic organizations to strengthen domestic social policies and 
programs. We rely on the best available data, science, technology, and 
evidence-based interventions to promote the social and emotional well-
being of children, youth, and families.

    With the Annie E. Casey Foundation, a private, national 
philanthropy, I had the opportunity to help develop a brighter future 
for millions of children at risk of poor education, economic, social 
and health outcomes in the United States.

    As the President and CEO of the Family League of Baltimore City, a 
nonprofit organization that creates public/private partnerships to 
improve the well-being of Baltimore's children, youth, and families, I 
helped launch several programs including the B'More for Healthy Babies 
initiative which led to a 19% reduction in infant mortality in the 
first year. We worked with Maryland's Juvenile Court and negotiated a 
State of Maryland commitment to expand the Family Recovery Program 
where we focused on helping parents reunify with their court removed 
children by providing substance abuse treatment, mental health 
services, and supportive housing.

    As the Mayor's Executive Director of the City of Los Angeles 
Commission for Children, Youth, and Their Families, we created safe 
passages for children and youth to get to school. We worked to align 
services and improve educational outcomes for 60,000 foster and 
probation youth in Los Angeles County.

    As the founding Executive Director of First Five Santa Cruz County, 
we launched a first-ever universal health care program to serve all 
children 0-18 in the county.

    In 1999, I became the youngest person to serve on the Watsonville 
City Council and was twice elected to represent the neighborhood into 
which I was born.

    Public service has been my life. And I have worked hard to develop 
the skills, relationships, and experiences I need to be the most able 
champion of children, youth, and families in need, regardless of the 
challenges they face, or the bureaucracy often standing between them 
and the help they need.

    And at every step along the way, the use of data, science, and 
results has driven my strategy. I have worked to build teams that value 
excellence, transparency, and accountability. Whether engaging diverse 
partners to improve educational outcomes for our nation's foster 
children, or using tech solutions to hack our way to more efficient 
services for young people by using smartphones, I plan to bring 
whatever innovative tools and resources we can rally.

    Whether helping the nation's LGBTQ runaway and homeless youth find 
loving homes who respect and accept them for who they are, or working 
to ensure that families receive the emergency shelter they deserve when 
fleeing from domestic violence, I will work tirelessly to engage the 
partners we need. I will be relentless in protecting the respect and 
dignity of those Americans who are in the greatest need.

    April is National Child Abuse and Prevention Month. The work of 
raising our children and youth is the most important job in our country 
and it will take every one of us to renew our commitment to protect the 
safety and well-being of our children and youth, and the families that 
care for them. As a father of two boys, I can attest to the fact that 
it is the single hardest and most glorious job I have ever had. Our 
children, youth and families are our greatest renewable resources. When 
we respect, honor and invest in them, we invest in us.

    Mr. Chairman, Ranking Member Wyden, and Honorable Members of the 
Committee, thank you again for the invitation to speak with you today. 
I have never shied away from hard work. If confirmed, I am ready to 
roll up my sleeves and work with you. America's children, youth and 
families deserve nothing less.With that, I would be pleased to answer 
your questions. Thank you.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

1. Name (include any former names used):

     Ralph ``Rafael'' Joseph Lopez
     Ralph Joseph Lopez Rivera

2. Position to which nominated:

      Commissioner, Administration on Children, Youth, and Families, 
Department of Health and Human Services

3. Date of nomination:  January 8, 2015

4. Address (list current residence, office, and mailing addresses):

5. Date and place of birth:

     October 27, 1970
     Watsonville, California

6. Marital status (include maiden name of wife or husband's name):

7. Names and ages of children:

8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):


 
 
 
Secondary Education Institution:
Education Institution:               Watsonville High School
Dates Attended:                      08/1984-06/1988
Degree Received:                     High School Diploma
 Date Degree Granted:                06/1988
 
Undergraduate Institutions:
Education Institution:               Vassar College
Dates Attended:                      08-12/1988; 08/1989-12/1991
Degree Received:                     Transferred to the University of
                                      California
 
Education Institution:               Cabrillo College
Dates Attended:                      06-08/1995
Degree Received:                     Transferable unit coursework to
                                      UCSC
 
Education Institution:               University of California Santa Cruz
Dates Attended:                      08/1992-06/1994
Degree Received:                     Bachelor of Arts (B.A.), American
                                      Studies
Date Degree Granted:                 12/2003
 
Graduate Institution:
Education Institution:               Harvard University
                                     Harvard Kennedy School
Dates Attended:                      07/2004-06/2005
Degree Received:                     Master of Public Administration
                                      (M.P.A.)
Date Degree Granted:                 06/2005
 


9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):


 
 
 
Title:                               Senior Policy Advisor
Employer:                            White House, Executive Office of
                                      the President
Location of Work:                    Washington, DC
Dates of Employment:                 July 2013-present (Via IPA from the
                                      Annie E. Casey Foundation)
 
Title:                               Associate Director
Employer:                            Annie E. Casey Foundation
Location of Work:                    Baltimore, MD
Dates of Employment:                 August 2010-Present (Currently an
                                      executive on loan to the White
                                      House via IPA)
 
Title:                               President and CEO
Employer:                            Family League of Baltimore City
Location of Work:                    Baltimore, MD
Dates of Employment:                 March 2009-July 2010
 
Title:                               Executive Director of the
                                      Commission for Children, Youth,
                                      and Their Families
Employer:                            City of Los Angeles (Mayor Antonio
                                      Villaraigosa)
Location of Work:                    Los Angeles, CA
Dates of Employment:                 August 2006-March 2009
 
Title:                               Deputy Director of the Department
                                      of Children, Youth, and Their
                                      Families
Employer:                            City/County of San Francisco
Location of Work:                    San Francisco, CA
Dates of Employment:                 January 2006-August 2006
 
Title:                               Senior Deputy for Health and Human
                                      Services
 Employer:                           Los Angeles County Board of
                                      Supervisors (Supervisor Gloria
                                      Molina)
Location of Work:                    Los Angeles, CA
Dates of Employment:                 July 2005-January 2006
 
Title:                               Project Manager
Employer:                            Professor Xavier Briggs, Harvard
                                      University
Location of Work:                    Cambridge, MA
Dates of Employment:                 Fall Semester 2004
 
Title:                               Teaching Assistant
Employer:                            Professor Nancy Katz, Harvard
                                      University
Location of Work:                    Cambridge, MA
Dates of Employment:                 Spring Semester 2005
 
Title:                               Founding Executive Director
Employer:                            First 5 Santa Cruz County, United
                                      Way
Location of Work:                    Capitola, CA
Dates of Employment:                 November 1999-July 2004
 
Title:                               Research and Development-Grants
                                      Manager
Employer:                            Salud Para La Gente, Inc.
Location of Work:                    Watsonville, CA
Dates of Employment:                 May-November 1999
 
Title:                               Administrative Analyst
Employer:                            County of Santa Cruz (Supervisor
                                      Tony Campos)
Location of Work:                    Santa Cruz, CA
Dates of Employment:                 December 1998-May 1999
 
Title:                               Administrative Analyst
Employer:                            City of Watsonville (Office of the
                                      City Manager; Finance Department;
                                      Parks, Recreation, and
                                      Neighborhood Services Department)
Location of Work:                    Watsonville, CA
Dates of Employment:                 December 1996-December 1998
 
Title:                               Intern
Employer:                            City of Watsonville (Office of the
                                      City Manager)
Location of Work:                    Watsonville, CA
Dates of Employment:                 July 1996-December 1996
 
Title:                               Consultant-Project Coordinator
Employer:                            Community Foundation of Santa Cruz
                                      County (Vecinos Project)
Location of Work:                    Soquel, CA
Dates of Employment:                 May-November 1996
 
Title:                               Consultant-California Mentorship
                                      Initiative Project Coordinator
Employer:                            Community Action Board of Santa
                                      Cruz County
Location of Work:                    Santa Cruz, CA
Dates of Employment:                 March-May 1996
 
Title:                               Temporary Office Assistant
Employer:                            Express Personnel Services
Location of Work:                    Santa Cruz County, CA
Dates of Employment:                 January-May 1996
 
Title:                               Consultant-Interim Executive
                                      Director
Employer:                            El Andar Foundation
Location of Work:                    Santa Cruz, CA
Dates of Employment:                 December 1995-August 1996
 
Title:                               Coordinator for Residential
                                      Education--Chicano/Latino Programs
Employer:                            University of California Santa
                                      Cruz, Merrill College
Location of Work:                    Santa Cruz, CA
Dates of Employment:                 July-December 1995
 
Title:                               Assistant to the Directors
Employer:                            University of California Santa
                                      Cruz--Chicano Latino Research
                                      Center
Location of Work:                    Santa Cruz, CA
Dates of Employment:                 October 1994-July 1995
 
Title:                               Temporary Office Assistant
Employer:                            Olsten Services and Kelly Services
Location of Work:                    Santa Cruz County, CA
Dates of Employment:                 June-October 1994
 


10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above):

Statewide Government Advisory Roles

      First 5 California Advisory Committee on Diversity, Former 
Member (Est. 2000-2002)
      First 5 California/First 5 Association of California Health 
Access Advisory Committee, Former Member (Est. 2000-2004)
      First 5 California/First 5 Association of California Children of 
Migrant Farm Workers Project Advisory Committee, Former Member (Est. 
2000-2004)

Countywide and Regional Government Advisory Roles

      Los Angeles County Child Care Planning Committee (Est. 2006-
2009)
      Los Angeles County Children's Planning Council (Est. 2006-2009)
      Los Angeles County Education Coordinating Council (Est. 2006-
2009)
      First 5 San Francisco County Commission (2006)
      San Francisco Beacon Initiative Steering Committee (2006)
      Child Development Resource Center Advisory Committee (Est. 1999-
2003)
      Children's Network of Santa Cruz County Executive Committee 
(Est. 1999-2003)
      County of Santa Cruz Latino Affairs Commission (Est. 1997-1999 )
      County of Santa Cruz Human Services Commission (Est. 1997-1999)
      County of Santa Cruz Welfare Reform Task Force (Est. 1997-1999)
      County of Santa Cruz Winter Shelter Advisory Committee (Est. 
1997-1999)
      Healthy Kids Santa Cruz County Steering Committee (Est. 2002-
2004)
      Santa Cruz County Regional Transportation Commission Board of 
Directors (Est. 2000-2001)
      Santa Cruz Metropolitan Transit District Board of Directors 
(Est. 2000-2001)
      Transportation Agency of Monterey County (Est. 2000-2001)
      Wastewater Board of Control (Est. 2000-2001)
      Zone 7 Board of Directors (Est. 2000-2001)

Citywide Government Advisory Roles

      City of Los Angeles Mayor's Gang Reduction and Youth Development 
Cabinet (Est. 2006-2009)
      Pajaro Valley Unified School District Superintendent's Committee 
on Bond Election (Est. 2000-2002)

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

      N/A

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

      Annie E. Casey Foundation Committee of Managers, Member (Est. 
2010-2013)
      Annie E. Casey Foundation Social Investment Committee, Member 
(Est. 2010-2013)
      Annie E. Casey Foundation Children and Family Fellowship 
Network, Network Steering Committee and Class 7 Representative (Est. 
2007-2012)
      The Leadership Baltimore, Member (Est. 2011-2013)
      HealthCare Access Maryland, Member of the Board of Directors and 
Chair of the Program Committee (Est. 2011-2013)
      Y of Central Maryland, Member of the Board of Directors (Est. 
2012-2013)
      Behavioral Health System Baltimore, Board of Directors (Est. 
2009-2010)
      Maryland Association of Local Management Boards, Member (Est. 
2009-2010)
      Harvard Kennedy School of Government Center for Public 
Leadership Student Advisory Board, Member (2004-2005)
      Kennedy School Latino Caucus, Member (2004-2005)
      The Harvard Journal of Hispanic Policy, Member and Senior Editor 
(2004-2005)
      California Private/Public Family Support Funders Group, Member 
(Est. 2001-2003)
      Local Government Commission, Member (Est. 2001-2003)
      Child Care Ventures, Steering Committee Member (Est. 2001-2003)
      Cultural Council of Santa Cruz County, Member of the Board of 
Directors (Est. 2001-2003)
      Pajaro Valley Community Health Trust, Founding Member and Member 
of the Board of Trustees (Est. 1998-2000)
      Pajaro Valley Prevention and Student Assistance, Member of the 
Board of Directors (Est. 2000-2003)
      Pajaro Valley Unified School District Superintendent's Committee 
on Bond Election (Est. 2000-2002)
      Action Pajaro Valley, Steering Committee Member (Est. 1999-2003)
      Defensa de Mujeres, Member of the Board of Directors (Est. 1996-
1999)
      El Andar Foundation, Member of the Board of Directors (Est. 
1994-1995)
      Healthy Kids Santa Cruz County, Steering Committee Member (Est. 
2002-2004)
      Latino Strategic Planning Collaborative of Santa Cruz County, 
Steering Committee and Co-Chair (Est. 1996-1999)
      United Way of Santa Cruz County Community Assessment Project, 
Steering Committee Member (Est. 1996-1999)
      United Way of Santa Cruz County Investing in Children and 
Families: What Works!, Steering Committee Member (Est. 1999-2001)
      United Way of Santa Cruz County Latino Technical Advisory 
Committee, Member (Est. 1996-1999)
      United Way of Santa Cruz County Success by Six Leadership 
Council, Member (Est. 2000-2003)
      United Way of Santa Cruz County Together for Youth Committee, 
Member Santa Cruz County (Est. 1996-1999)

13. Political affiliations and activities:

      a.  List all public offices for which you have been a candidate.

          City of Watsonville District 1 Council Member, Special 
Election 1999
          City of Watsonville District 1 Council Member, General 
Election 2000

      b.  List all memberships and offices held in and services 
rendered to all political parties or election committees during the 
last 10 years.

          Member, Democratic Party
          Volunteer, Barack Obama for President, 2012 and 2008
          Volunteer, John Kerry for President, 2004

      c.  Itemize all political contributions to any individual, 
campaign organization, political party, political action committee, or 
similar entity of $50 or more for the past 10 years.

          June 2008: $100, Committee to Elect Tony Thurmond, 
California State Assembly 15th District

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

    October 2011: Greater Baltimore Committee Leadership Program: For 
        past and future civic volunteer contributions to the Baltimore 
        community.

    June 2010: Mayor of the City of Baltimore, Maryland. For 
        distinguished leadership and service to the people of 
        Baltimore, Maryland.

    June 2010: Baltimore Mental Health Systems. For commitment and 
        service to the City of Baltimore and its residents with mental 
        illness and their families.

    March 2009: Mayor of the City of Los Angeles, California. For 
        distinguished leadership and service to the people of Los 
        Angeles, California.

    January 2007-September 2008: Annie E. Casey Foundation. Children 
        and Family Fellowship, National Fellow.

    June 2005: Harvard University John F. Kennedy School of Government. 
        Lucius N. Littauer Fellow Award. For demonstrated distinction 
        in academic work at the Kennedy School, contributions to the 
        Kennedy School, the Harvard community and other organizations, 
        and demonstrated potential for continuing leadership.

    June 2004: United States Congress, California State Senate, 
        California State Assembly, First 5 California, Santa Cruz 
        County Board of Supervisors and the City of Watsonville. For 
        distinguished service as the Founding Executive Director of 
        First 5 Santa Cruz County.

    December 2003: University of California Santa Cruz, Department of 
        American Studies. Honors in American Studies. Honors Thesis.

    June 2003 and June 2002: El Concilio de Vecinos Unidos de la Mona 
        Lisa. For leadership and service to the people of the Mona Lisa 
        Neighborhood Association in Watsonville, California.

    March 2003: Stanford University Graduate School of Business 
        Executive Program for Nonprofit Leaders. Center for Social 
        Innovation Fellow. Scholarship provided by the David and Lucile 
        Packard Foundation.

    May 2003: Latino Issues Forum. For leadership and service in 
        launching the Rural Technology Information Project in 
        Watsonville, California.

    October 2001: Family Resource Center Network of Santa Cruz County. 
        For leadership and service to the young children and families 
        of Santa Cruz County.

    August 1999: Brown Berets Peace and Unity Coalition. For service to 
        the youth of Watsonville in the Peace and Unity March.

    June 1994: Oakes College, University of California Santa Cruz. 
        Oakes College Distinguished Service Award. For distinguished 
        service to the college, university, and community.

    July 1992: Congressman Solomon Ortiz, United States Congress. 
        Certificate for service as an intern in the United States 
        Congress.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

    Lopez, Rafael, Montoya, Liz, Santana, Miguel. (2005).``Myth and 
        Reality: Is the Latino Vote Up for Grabs?'' Kennedy School 
        Review, Volume VI. President and Fellows of Harvard College: 
        Cambridge, MA.

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

    March 28, 2014: United States Citizenship and Immigration Services, 
        Keynote Remarks at the New York City Naturalization Ceremony.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

    It is an honor to be nominated to serve as the Commissioner of the 
        Administration on Children, Youth, and Families. I have spent 
        my career focused on creating, developing, and strengthening 
        programs and policies that serve children, youth, and families 
        in rural, suburban, and urban communities. I have substantial 
        content and management experience in leading organizations and 
        building relationships across sectors to achieve results. 
        Whether leading these organizations or systems through 
        community strategic planning or by developing streamlined 
        policies and operations strategies, I know how to execute.

    I possess a keen sense of how organizations function and how they 
        must work together to achieve desired results that change the 
        lives of people. I have a demonstrated ability to work in a 
        fast-paced, politically charged environment. Creating 
        innovative, high-impact solutions and turning around programs, 
        organizations, and systems is a hallmark of my experience, and 
        I have successfully done so under difficult circumstances 
        across sectors. I have served in senior or executive level 
        positions with substantial experience from multiple 
        perspectives in nonprofit organizations, city, county, and 
        state governments, and philanthropy. I understand the 
        importance of strategic collaboration and the need to work 
        across ideologies and sectors to create lasting change.

    I have never shied away from hard work and will focus all of our 
        efforts to improve the lives of our nation's most vulnerable 
        citizens. America's children, youth, and families deserve 
        nothing less.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

     Yes.

2.  Do you have any plans, commitments, or agreements to pursue outside 
employment, with or without compensation, during your service with the 
government? If so, provide details.

     No.

3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

     No.

4.  If you are confirmed by the Senate, do you expect to serve out your 
full term or until the next Presidential election, whichever is 
applicable? If not, explain.

      If confirmed by the Senate, I expect to serve until the next 
Presidential election.

                   C. POTENTIAL CONFLICTS OF INTEREST

1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

      I have no investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position for which I have been nominated.

2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

      I have no business relationship, dealing, or financial 
transaction during the last 10 years that could in any way constitute 
or result in a possible conflict of interest in the position for which 
I have been nominated.

3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal government need not be listed.

     N/A

4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Provide the Committee with two copies of any trust or other 
agreements.)

     N/A

5.  Two copies of written opinions should be provided directly to the 
Committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

     N/A

6.  The following information is to be provided only by nominees to the 
positions of United States Trade Representative and Deputy United 
States Trade Representative:

      Have you ever represented, advised, or otherwise aided a foreign 
government or a foreign political organization with respect to any 
international trade matter? If so, provide the name of the foreign 
entity, a description of the work performed (including any work you 
supervised), the time frame of the work (e.g., March to December 1995), 
and the number of hours spent on the representation.

     N/A

                       D. LEGAL AND OTHER MATTERS

1.  Have you ever been the subject of a complaint or been investigated, 
disciplined, or otherwise cited for a breach of ethics for 
unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

      Yes, I have been the subject of a complaint within the context of 
civil litigation filed by a former employee. A lawsuit was filed by the 
plaintiff on July 28, 2009 against our mutual employer, the City of Los 
Angeles, following the plaintiff's employment termination in 2007. The 
lawsuit, Superior Court of California County of Los Angeles Case 
#BC418703, demanded damages for unsubstantiated claims of 
discrimination based on the plaintiff's age and gender. Following a 
jury trial, the jury returned a unanimous verdict on August 17, 2010 in 
favor of the City of Los Angeles.

2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

     No.

3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

     No, other than the matter described above in Question D.1.

4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

     No.

5.  Please advise the Committee with any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

     None.

                     E. TESTIFYING BEFORE CONGRESS

1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

     Yes.

2.  If you are confirmed by the Senate, are you willing to provide such 
information as is requested by such committees?

     Yes.

                                 ______
                                 
         Questions Submitted for the Record to Rafael J. Lopez
               Questions Submitted by Hon. Orrin G. Hatch
    Question. Mr. Lopez, as we discussed, last year a number of 
provisions from my bill, ``IOYouth,'' were enacted into law. I am 
pleased that included were a number of provisions relating to 
``normalcy'' for children and youth in foster care.

    Before the enactment of this law, older youth in foster care are 
routinely deprived of the opportunity to participate in normal age-
appropriate activities and social events. This impairs their healthy 
development and increases the risk that these young people will be 
vulnerable to domestic sex trafficking, homelessness, drug abuse, poor 
educational outcomes, poverty and other negative outcomes.

    The new law includes a number of provisions to encourage, enhance 
and support youth in foster care to be able to participate in age-
appropriate activities and social events. These provisions, if enacted 
correctly, will go a long way to promoting healthy development, 
increased opportunities to form meaningful connections, and reduce the 
risk of vulnerability to domestic sex trafficking and other negative 
outcomes.

    If confirmed, please describe how you would work with states and 
child welfare stakeholders to implement the normalcy provisions in this 
new law.

    Answer. The provision of developmentally appropriate services is 
critical to the well-being of all children, youth and young adults in 
the foster care system. The Preventing Sex Trafficking and 
Strengthening Families Act (Public Law 113-183) created the requirement 
for states and tribes to permit the use of a ``reasonable and prudent'' 
parenting standard to give foster parents more discretion in 
determining what age appropriate activities children in their care can 
participate.

    Children and youth in care deserve the exact same opportunities of 
those that are not in care, including the ability to participate in 
extracurricular activities, and excursions that might help them 
discover new places with their school arts group or sports teams. We 
know youth are particularity passionate about this topic and have their 
own ideas about how best to work with states and other stakeholders. As 
part of the new law, the Department of Health and Human Services (HHS) 
has been tasked with providing technical assistance to states and 
tribes to implement their standards. If confirmed, I look forward to 
working with you and other Members of Congress to assist in this 
important effort in any way that I can.

    To support this work, HHS has recently partnered with the White 
House and the Annie E. Casey Foundation to bring together child welfare 
leaders from across the country to learn from each other. This one day 
event, during National Foster Care Month, will be just the beginning of 
efforts to provide technical assistance to States and Tribes on the 
topic of ``normalcy.'' Innovative solutions, toolkits, social media 
outreach strategies and more must be lifted up from across the country 
and should be shared on platforms that are easily accessible to all 
involved.

    Question. Mr. Lopez, last year Senator Bennet and I introduced 
legislation to promote social impact financing. We plan to reintroduce 
this bill again shortly.

    I believe that if done correctly, social impact financing can 
improve outcomes for children and youth in foster care by promoting 
adoption and ending the over-reliance on group homes. A key feature of 
the concept is that the government does not pay, if the intervention is 
not successful.

    Do you support efforts to utilize social impact financing more 
broadly in delivering social services?

    If confirmed, can you describe how you would work to integrate key 
features of social impact financing to programs and policies that 
affect children and youth in foster care?

    Answer. I understand that you introduced the Social Impact 
Partnership Act, 
S. 1089, legislation that aims to leverage public-private partnerships 
to deliver transformative results in social and public health programs. 
I would be happy to work with you and other Members of Congress to 
improve results for children in foster care and reduce incidences of 
child abuse and neglect. One of the goals of the legislation mirrors 
the President's FY 2016 budget proposal to reduce the use of congregate 
care placements by encouraging greater use of family-based care for 
children and youth in foster care. The legislation could help achieve 
that goal by providing a pathway for creative public-private 
partnerships on a range of social services topics, including the 
challenges related to recruiting and training more foster families, the 
recruitment of whom save significant resources to the child welfare 
system in the long term while yielding better results for children.

    We must work closely together to end the over-reliance on group 
homes and I believe that social impact financing is a promising new 
tool that can help address this challenge. It may also help us overcome 
barriers to evidence based policies that can yield better results for 
the child welfare system. For instance, we are seeing communities 
pursue solutions to reduce parental substance abuse, maternal 
depression, maternal homelessness and the challenge of youth dually 
involved in the juvenile justice and child welfare systems.

    Currently, HHS is undertaking a review of where social innovation 
financing solutions can be deployed for demonstrations connected to 
Medicaid. I would be interested in engaging in a similar review for 
programs and services managed by the Administration for Children, 
Youth, and Families. I will also work to build awareness that ``pay for 
success'' is a permitted use under the current title IV-E waiver 
guidance. I will work to actively engage philanthropy interested in 
delivering better results in the child welfare field given how critical 
the philanthropists have been to social impact financing in other 
fields. This is not intended to be an exhaustive list, but exemplary of 
the types of activities I would undertake to promote promising new 
tools to help deliver better results for children, youth, and families.

                                 ______
                                 
               Questions Submitted by Hon. Chuck Grassley
    Question. What specific reforms or changes would you like to see 
within the child welfare system so that the system may better serve 
children and families?

    Answer. How we support the healthy, positive growth and development 
of our children, youth, and families is of vital importance to the 
United States. We must do more to work together to create and 
strengthen cross-sector partnerships that solve our nation's most 
complex, human services challenges, and highlight examples of what is 
working in communities that may not often be lifted up or recognized on 
a national scale. Reforms in the child welfare system have never come 
easily, and have at times been reactive to the national attention drawn 
by the tragic abuse and death of children. We must do more to ensure 
that every reform is driven by a results based framework that places 
the child/youth/family/community at the core of the reform. We must 
work across perceived barriers to ensure that we are doing all that we 
can do as a society to provide greater opportunities for children, 
youth and families to thrive, well before they unnecessarily come to 
the attention of a child welfare agency. For these reasons, I support 
the proposals in the President's FY 2016 budget which seek to 
strengthen and make targeted investments in child welfare programs to 
better serve children and families.

    Overall, the proposals address initiatives from prevention to 
permanency. Specifically, the following proposals aim to better serve 
children and families in the child welfare system by:

    Providing entitlement funding for evidence-based prevention and 
        post-permanency services for children at imminent risk of 
        entering foster care;

    Providing support and funding to encourage greater use of family-
        based care for children and youth in or at risk of congregate 
        care placements;

    Providing grants to reduce use of psychotropic medications among 
        children and youth in foster care;

    Providing grants to prevent foster youth from becoming victims of 
        sex trafficking and provide better services to foster youth 
        victims of trafficking;

    Providing additional funding to help Tribes strengthen their child 
        welfare programs; Expanding the service array in rural areas to 
        better meet the needs of children and families in child 
        welfare; and

    Extending the Chafee Foster Care Independence Program to youth up 
        to age 23.

    Question. How can states and the federal government improve 
policies to help older youth who age out or are at risk of aging out?

    Answer. I support the President's FY 2016 budget proposal to allow 
title IV-E agencies to use their Chafee Foster Care Independence 
Program (CFCIP) funds to provide services, including room and board, to 
young people who were formerly in foster care through the age of 23. 
Agencies should be able to serve this larger group of youth if (1) the 
State already has opted to extend care to youth up to age 21 who are 
meeting educational and or employment goals and, (2) if the agency 
provides benefits comparable to the title IV-E extended foster care 
program, using State dollars or other sources of funding. This would 
allow agencies that have taken advantage of all of the options 
available under title IV-E (that is, selecting the maximum age of 21 
and all authorized education, employment, and medical participation 
options) to use their CFCIP funds to continue to provide supports to 
young people through age 23.

    Emerging neuroscience on the development of the adolescent brain 
has challenged our earlier thinking that our brains were fully 
developed by age 6. Youth who are aging out of foster care or are at 
risk of aging out must benefit from positive youth development 
approaches that provide opportunities for them to develop life longs 
skills that help them develop resiliency throughout adulthood. We must 
continue to search for and lift up promising practices and evidence 
based approaches that treat our young people with the respect and 
dignity they deserve. We must be open to new and innovative ideas, 
especially when it comes to state and federal partnerships working to 
improve policies for youth.

    Question. In your view, what are some of the challenges to 
recruiting foster families, and what more can be done by the federal 
government to find the best placements for children who may enter the 
foster care system?

    Answer. Social science and common sense tells us that children are 
better off when raised by loving, caring and forever families. But not 
every child experiences being raised in such a setting. There are 
several challenges in recruiting foster families, especially when 
trying to secure a family for children experiencing severe mental 
health and/or behavioral issues. To address this, the President's FY 
2016 budget proposes to provide additional support and funding for 
foster families to promote family-based care for children with 
behavioral and mental health needs. These supports include funding 
forspecialized training and salaries for foster parents who provide a 
therapeutic environment for a child.

    Question. In your view, what are some of the challenges facing 
child welfare workers across the country, and what more can be done by 
the federal government to improve our ability to recruit, retain, and 
support the workforce?

    Answer. Some of the challenges facing child welfare workers relate 
to the size of caseloads as well as support and training for serving 
children in foster care who have severe mental and behavioral health 
issues. I support the Administration's FY 2016 budget proposal to 
provide increased support for child welfare caseworkers to provide 
specialized case management for these children through having smaller 
caseloads. Under this proposal, States will receive additional support 
for these workers to receive specialized training in areas such as 
behavioral management techniques, and treatment for emotional 
disturbances. We must also look to bright spots at the local level to 
lift up innovative solutions for supporting child welfare workers and 
be open to considering policy changes at the federal level that will 
incentivize the recruitment, retention and support of the workforce. We 
can all do more to honor and thank the workforce charged with ensuring 
that all children and youth live with loving families.

    Question. Congress has a duty to review and reform the child 
welfare financing system. Many members are interested in improving the 
way federal dollars are spent, and making sure we incentivize states to 
the right thing. Do you have any suggestions for Congress as it 
attempts to modify the financing structure and improve existing child 
welfare programs?

    Answer. If confirmed, I would be happy to work with the Members of 
Congress to improve the way federal dollars are spent and improve 
existing child welfare programs. Along these lines, I support the 
President's FY 2016 budget to allow title IV-E dollars to be spent on 
prevention services for children who are at imminent risk of entry into 
foster care. In addition, I support the President's FY 2016 budget 
proposal that seeks to provide title IV-E funding in new ways to 
promote family-based care for children with behavioral and mental 
health needs in or at-risk of congregate care placements. Among other 
things, the proposal provides enhanced support for specialized foster 
care casework with these at-risk children and for specialized training 
and salaries for foster parents who provide a therapeutic environment 
for children with behavioral and mental health needs.

    Question. In order to improve front end services and promote 
preventative measures to ensure children don't have to enter the foster 
care system, how could Congress direct funding to promote these goals? 
Are there specific programs that you would shift funding from in an 
effort to promote other, more preventative programs?

    Answer. Providing pre-placement and post-placement services is 
often key to whether a child must be removed from their home or whether 
a recently established permanency arrangement can be sustained. The 
Administration's FY 2016 budget proposes to allow title IV-E agencies 
to claim federal reimbursement for pre-placement and post-placement 
services included as part of the child's case plan for children who are 
at ``imminent risk'' of removal from their homes at 50 percent Federal 
Financial Participation (FFP), which is the same rate as administrative 
costs. Currently, most of these activities are unallowable. A majority 
of such funds must be used for evidence based/informed interventions. 
The proposal also includes additional reporting and oversight 
requirements for title IV-E agencies for these services provided to 
this population, and a maintenance-of-effort requirement to maintain 
the current level of State or Tribal investment in child welfare 
services.

                                 ______
                                 
                 Questions Submitted by Hon. John Thune
    Question. I was reviewing your testimony, and something you wrote 
stood out. You said, ``As a Senior Policy Advisor in the White House 
Office of Science and Technology Policy and with the Domestic Policy 
Council, I work to improve the relationship between the administration 
and nonprofit and philanthropic organizations to strengthen domestic 
social policies and programs. We rely on the best available data, 
science, technology, and evidence-based interventions to promote the 
social and emotional well-being of children, youth, and families.'' Mr. 
Lopez, can you elaborate on what evidence-based interventions, science, 
and data you relied on to make policy decisions in Domestic Policy 
Council? How did these data-driven policy decisions improve the social 
and emotional well-being of children, youth, and families?

    Answer. As a Senior Policy Advisor, I serve as one of several team 
members that rely on the use of the best available data, science, and 
evidence-based interventions. I cannot think of a project or assignment 
I worked on at the White House where we did not look to the best 
available data and science to guide our efforts.

    For example, Congress created the Maternal, Infant, and Early 
Childhood Home Visiting program to support voluntary, evidence-based 
home visiting services for at-risk pregnant women and parents with 
young children up to kindergarten entry. States, Territories and Tribal 
entities have the flexibility to tailor the program to the specific 
needs of their communities. The program serves high-risk households:

    79% of participating families were at or below the federal poverty 
        guidelines ($23,850 for a family of 4);

    69% of adult program participants had no post secondary education;

    27% of households included a pregnant teen;

    20% reported a history of child abuse and maltreatment; and

    12% reported substance abuse.

    Though there is variation across evidence-based home visiting 
models, all programs share common characteristics including trained 
professionals meeting regularly with expectant parents or families with 
young children in their homes, helping build strong, positive 
relationships with families who want and need support.

    Evaluation results from the North Carolina program ``Durham 
Connects'' studied the effects of home visiting on childhood health 
outcomes. Results included 84% fewer hospital overnights, 17% fewer 
medical visits, and less overall emergency medical services. Every $1 
spent on Durham Connects saved $1.59 by age 6 months in terms of 
emergency medical costs.

    The current research and evidence base helps us understand that the 
most effective home visiting models promote child development and 
school readiness, positive parenting practices, family economic self-
sufficiency, maternal health, and reductions in child maltreatment. 
Home visiting programs are an essential component of the 
Administration's early education agenda.

    Question. You go on to say, ``And at every step along the way, the 
use of data, science, and results has driven my strategy. I have worked 
to build teams that value excellence, transparency, and 
accountability.'' These are excellent principles that I think everyone 
on this committee values. How did you work to improve transparency and 
accountability at the Domestic Policy Council? Will you do to promote 
these principles at HHS if confirmed in your new position?

    Answer. The pursuit of excellence, transparency, and accountability 
are principles core to my life as a public servant. So too have been 
the consistent use of data, science, and results-based work to drive 
strategy. For example, I helped lead a community effort that launched 
the B'More for Healthy Babies Campaign in Baltimore, Maryland, a 
strategic initiative aimed at reducing infant mortality and improving 
the health of babies and their families. The rate at which Baltimore 
babies die preventable deaths has been a rate among the worst in 
America. Cross-sector partnerships were established including 
government agencies, hospitals, churches, universities, nonprofit 
organizations and more to transparently review the data and risk 
factors contributing to challenges in specific neighborhoods, 
ultimately leading to more intensive work in two neighborhoods. We also 
learned that strategically deploying home visiting programs and 
strengthening their ability to use data to inform their work would 
strengthen the overall campaign. Collectively, the work led to a 19% 
reduction in infant mortality in the first year. Between 2009 and 2012, 
overall infant mortality rate decreased by 28%.

    While not quick or easy, understanding and sharing the data and 
stories behind why some neighborhoods had higher infant mortality rates 
over others was critical to launching this work. Engaging the science 
and importance of results and accountability behind home visiting and 
other public health programs was foundational to the work. We worked 
together to lead open community forums to solicit ideas and feedback 
and prepared requests for proposals that clearly articulated client 
level and program level outcomes that would be measured.

    In all the work that I do, I find ways to use data and science to 
achieve results and have a positive impact on children, youth, and 
families. These principles serve as the foundation to how I manage all 
of my work whether serving as a team member of the Domestic Policy 
Council, the Office of Science and Technology Policy, or elsewhere. If 
confirmed, I will work tirelessly to promote these very same principles 
at the Administration on Children, Youth and Families at HHS.

    Question. In your testimony, you mentioned using tech solutions to 
hack our way to more efficient services for young people by using 
smartphones. What are your ideas on tech solutions and innovative 
tools?

    Answer. If confirmed, I would be happy to work with the Members of 
Congress interested in testing new tools such as ``hackathons'' to 
better improve the use of data to improve results for children, youth, 
and families. The use of reliable and timely data, especially in the 
status of any one child or the information required to transfer school 
records for a homeless child or youth in foster care in a more 
efficient manner, are issues that continue challenging social service 
systems. Child welfare systems, in particular, have not been known for 
being at the cutting edge of technology.

    We must work closely together to seek more creative solutions in an 
era that is driven by the use of rapidly evolving technology and 
smartphones. We must be much more agile and responsive to what is 
happening at the local level that might inform best practices at the 
federal level. ``Civic hacking,'' for example, has drawn together 
thousands of people from residents to entrepreneurs, developers and 
community groups. They have often worked together with government and 
business leaders to devise innovative solutions ranging from apps and 
websites that create greater civic transparency to locating homeless 
services.

    We must work harder to be far more ``customer friendly'' in the use 
of technology, whether that is for youth aging out of foster care 
looking for help in getting into college or a mother looking for 
immediate shelter from violence. How, when, and where we use 
smartphones, tech solutions, and other tools to more efficiently 
connect people to the help they need--when they need it--is an area 
that requires our creative thinking and partnership.

                                 ______
                                 
               Question Submitted by Hon. Maria Cantwell
    Question. As you may know, Washington is a title IV-E child waiver 
state. Washington State's current title IV-E waiver enables us to 
direct federal funds to preventing children from being placed in foster 
care, and to explore other creative solutions to reform and improve 
child welfare programs.

    If confirmed, will your office continue to support states like 
Washington as they seek to reform and improve their child welfare 
systems?

    Will you work with me and other members of the Committee on ways to 
improve the title IV-E program?

    Answer. I am very committed to working with States and Tribes in 
support of efforts to reform and improve their child welfare systems. 
The Administration was pleased that so many States took advantage of 
the opportunity to apply for new waiver demonstration projects in 
fiscal years (FYs) 2012-2014. The demonstration projects offer an 
important opportunity to learn from the range of strategies that 
States, like Washington, are taking to improve results of safety, 
permanency, and well-being for children and families involved in the 
child welfare system. If confirmed, I will ensure that we continue to 
support the States and the Tribes approved to conduct demonstrations. 
By supporting them in successfully implementing and evaluating their 
projects, we have the opportunity both to improve results for children 
and families in those jurisdictions and to promote continued knowledge 
development for the field. Successful implementation at the local level 
can help better inform and drive policy and practice at the federal 
level.

    In addition to the work with waiver demonstrations, this 
Administration is continuing to promote reforms in the title IV-E 
program through other initiatives, as reflected in the President's FY 
2016 Budget. The Administration has proposed legislative changes to 
provide title IV-E funding for preventive services for families with 
children at imminent risk of entering foster care to enable them to 
remain safely at home. In addition, the budget proposes reforms to 
encourage greater use of family-based services for children who would 
otherwise be served in congregate care. If confirmed, I look forward to 
working with you and other Members of the Committee to enact these 
reforms.

                                 ______
                                 
 Statement of Anne Elizabeth Wall, Nominee for Deputy Under Secretary, 
                       Department of the Treasury
    Chairman Hatch, Ranking Member Wyden, and members of the Committee, 
I appreciate the opportunity to be here in the Senate and to appear 
before the Senate Finance Committee. It's always nice to come to a 
place that feels like a second home--and it is a humbling honor to be 
seated at this table before you after several years sitting alongside 
the hardworking staff behind you.

    I especially want to thank you and your staff for considering my 
nomination. I am sincerely grateful to President Obama for nominating 
me to serve as Assistant Secretary for Legislative Affairs at the 
Department of the Treasury and to Secretary Lew for recommending me for 
this position. I have the privilege of serving as a Counselor to 
Secretary Lew and could not be more excited to continue to work in this 
new role, if confirmed, with the talented, professional, intelligent, 
and dynamic staff of the Treasury Department.

    I can't tell you how meaningful it is to have my parents, Michael 
and Liz, here with me today. And I'd like to recognize my brother, 
Jonathan, who is at home in Chicago. Their encouragement empowered me 
as I began what I thought would be a brief adventure as Senate staffer 
in DC. Almost a decade later, it is only because of that encouragement 
as well as their love and support that I have been able to serve in 
what has already been the professional experience of a lifetime.

    As my family and friends know, I try not to stray too far from my 
Chicago roots. I strive to live by the values my parents instilled in 
me. And I'm thankful they are here today.

    Finally, I will always be grateful to my home state Senator, Dick 
Durbin, who as Majority Whip took a chance on a young practicing lawyer 
who moved to Washington without a job but with a strong desire to learn 
how government really works, and he gave me the honor of being a part 
of his remarkable, dedicated staff for five and a half wonderful years.

    It was in that role, as part of the Leadership staff, that I spent 
countless hours on the Senate Floor. I learned first-hand that the 
United States Senate is a place where your word is your bond. It is a 
place where strong friendships and relationships can develop, even when 
you don't agree on policy, politics, or process. It is also a place 
where a sense of humor can be as valuable as a sense of duty. And I 
certainly tried to keep that in mind working with offices on whip 
questions and conversations about Senate procedure.

    I carried my Senate Floor experience with me when I joined the 
White House Office of Legislative Affairs--first as Special Assistant 
to the President for Legislative Affairs and later as Deputy Assistant 
to the President for Legislative Affairs and Senate Liaison. Serving 
President Obama and working with his team for three years was one of 
the most special times in my life. Contributing to the daily work of 
the country from the other side of Pennsylvania Avenue was uniquely 
rewarding--and, as in the Senate, it is a place where relationships 
matter.

    In my role as the White House Liaison to the Senate, I built strong 
ties to both Republicans and Democrats. Together, we kept open a line 
of communication between the Legislative and Executive Branches--a 
relationship that is essential to getting things done.

    If confirmed, I would look forward to ensuring that there is an 
honest dialogue between the Treasury Department and Congress. You can 
count on me to be responsive and respectful, to be candid and clear, 
and to do my best to accurately represent the views of the Department 
of the Treasury and the Administration before this Committee and others 
in Congress. And in turn, you can count on me to make sure that your 
views are shared and respected within the Department of the Treasury.

    Thank you again for your consideration. I look forward to 
responding to your questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

1. Name:

     Anne Elizabeth Wall

2. Position to which nominated:

     Deputy Under Secretary of the Treasury \1\
---------------------------------------------------------------------------
    \1\ Once confirmed, position's working title is ``Assistant 
Secretary for Legislative Affairs.''

---------------------------------------------------------------------------
3. Date of nomination:

     February 25, 2015

4. Address:

5. Date and place of birth:

     December 25, 1976; Oak Lawn, Illinois

6. Marital status:

7. Names and ages of children:

8. Education:

      Miami University (Oxford, Ohio) 1995-1999; Bachelor of Arts in 
Political Science and History, awarded May 1999

      DePaul University College of Law (Chicago, Illinois) 1999-2002; 
Juris Doctor, awarded May 2002

9. Employment record:

     U.S. Department of the Treasury (Washington, DC)

       Title: Counselor to the Secretary
       Dates: January 2015-present

      Executive Office of the President, White House Office of 
Legislative Affairs (Washington, DC)

       Title:  Deputy Assistant to the President and Senate Liaison, 
Office of Legislative Affairs
       Dates: January 2014-January 2015

       Title: Special Assistant to the President, Office of Legislative 
Affairs
       Dates: September 2011-January 2014

      United States Senate, Office of the Assistant Majority Leader 
Durbin (Washington, DC)

       Title: Floor Director
       Dates: January 2009-September 2011

       Title: Office Counsel
       Dates: January 2007-September 2011

       Title: Floor Assistant
       Dates: January 2007-January 2009

       Title: Legislative Correspondent
       Dates: June 2006-January 2007

     Pretzel and Stouffer (Chicago, IL)

       Title: Litigation Associate
       Dates: September 2004-May 2006

     Cook County Circuit Court (Chicago, IL)

       Title: Law Clerk to Judge Allen Goldberg
       Dates: September 2002-September 2004

       Title: Law Clerk to Judge Lynn Egan
       Dates: June 2002-September 2002

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above):

      N/A

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

      N/A

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

      Member, Illinois Bar (2002-present)

13. Political affiliations and activities:

      a.  List all public offices for which you have been a candidate.

        N/A

      b.  List all memberships and offices held in and services 
rendered to all political parties or election committees during the 
last 10 years.

        N/A

      c.  Itemize all political contributions to any individual, 
campaign organization, political party, political action committee, or 
similar entity of $50 or more for the past 10 years.


 
  Political Committee           Amount             Contribution Date
 
 
Obama Victory Fund------$340.00----------------October 13, 2008---------
 


14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

      N/A

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

      N/A

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

      N/A

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

    From June 2006 until September 2011, I worked in the Senate for 
        Majority Whip Durbin in various capacities as part of his Floor 
        staff, where I worked with the Caucus and tracked legislation 
        moving through the Senate floor, including legislative efforts 
        involving tax, budget, small business, and other economic 
        policy issues. Following my 5\1/2\ years working on Capitol 
        Hill, I began working at the White House as a Special Assistant 
        to the President for Legislative Affairs and later as Deputy 
        Assistant to the President for Legislative Affairs and Senate 
        Liaison. In both of those roles, I had significant interaction 
        with Members of Congress and their staffs, including matters 
        pending before the Senate Committee on Finance and Senate 
        Committee on Banking, Housing, and Urban Affairs. During my 
        tenure in Washington, both in the Senate and in the Executive 
        Branch, I have focused on establishing open and honest lines of 
        communication between the branches of government, which is a 
        critical element to ensuring Congress and the Executive Branch 
        can address the policy challenges facing our nation.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

     No (I am currently an employee of the U.S. Department of the 
Treasury).

2.  Do you have any plans, commitments, or agreements to pursue outside 
employment, with or without compensation, during your service with the 
government? If so, provide details.

     No.

3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

     No.

4.  If you are confirmed by the Senate, do you expect to serve out your 
full term or until the next Presidential election, whichever is 
applicable? If not, explain.

     Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of the Treasury's 
Designated Agency Ethics Official (DAEO) to identify potential 
conflicts of interest. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the Department's DAEO and that has been provided 
to this Committee. I am not aware of any other potential conflicts of 
interest.

2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of the Treasury's 
DAEO to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Department's DAEO 
and that has been provided to this Committee. I am not aware of any 
other potential conflicts of interest.

3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal government need not be listed.

    I have performed no such activities.

4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Provide the Committee with two copies of any trust or other 
agreements.)

    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of the Treasury's 
DAEO to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Department's DAEO 
and that has been provided to this Committee. I am not aware of any 
other potential conflicts of interest.

5.  Two copies of written opinions should be provided directly to the 
Committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

6.  The following information is to be provided only by nominees to the 
positions of United States Trade Representative and Deputy United 
States Trade Representative:

    Have you ever represented, advised, or otherwise aided a foreign 
government or a foreign political organization with respect to any 
international trade matter? If so, provide the name of the foreign 
entity, a description of the work performed (including any work you 
supervised), the time frame of the work (e.g., March to December 1995), 
and the number of hours spent on the representation.

                       D. LEGAL AND OTHER MATTERS

1.  Have you ever been the subject of a complaint or been investigated, 
disciplined, or otherwise cited for a breach of ethics for 
unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

    No.

2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

    In 1996, I received a citation in Oxford, Ohio (Butler County) for 
underage possession of alcohol. In 1993, I received a citation in 
Alsip, IL (Cook County) for underage possession of alcohol.

3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

    No.

4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

    None (other than responses provided to Part D, Question 2 above).

5.  Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

    N/A

                     E. TESTIFYING BEFORE CONGRESS

1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

    Yes.

2.  If you are confirmed by the Senate, are you willing to provide such 
information as is requested by such committees?

    Yes.

                                 ______
                                 
        Question Submitted for the Record to Anne Elizabeth Wall
               Question Submitted by Hon. Maria Cantwell
    Question. Washington state has long been as innovator in health 
care. One such innovation is the invention of direct primary care 
medical homes (DPC). In DPC medical homes, patients pay a single 
monthly fee for all primary care services and in turn have access to 
their primary care physician without co-pays, deductibles, or 
coinsurance.

    Section 1301(a)(3) of the Patient Protection and Affordable Care 
Act (Pub. L. 111-48) allows DPC medical homes to participate in state 
marketplaces in combination with qualified health plans. The Washington 
state exchange currently offers a qualified health plan incorporating 
DPC services.

    I understand that the Internal Revenue Service (IRS) does not 
permit payments to DPC medical homes as a qualified medical expense in 
a Health Savings Account (HSA), due to the agency's reading of Section 
213(d) of the Internal Revenue Code. I understand that Section 213(d) 
disallows qualified medical expenses from secondary health plans. On 
June 17, 2014, I wrote IRS Commissioner John Koskinen and requested 
that the IRS provide clarification on whether the agency still contends 
that DPC medical homes constitute health plans. Senator Patty Murray 
and Representative Jim McDermott joined my letter.

    On June 30, 2014, Commissioner Koskinen responded to my letter by 
saying, among other things, that a review of what constitutes a 
qualified expense under section 213(d) would be considered on the 2013-
2014 Treasury and IRS Priority Guidance Plan.

    I understand that my staff has spoken with Treasury and IRS staff 
in follow-up to this letter, but that the review mentioned in the 
response letter is still pending.

    If confirmed, will you commit to providing me and my staff timely 
updates on IRS and Treasury guidance related to direct primary care 
medical homes?

    Answer. Yes. If confirmed, I commit to ensuring that Treasury 
provides timely, substantive responses to inquiries received from 
Congress, including the request described in your question.

                                  [all]
                                  
                                  
                                  
                                  

</pre></body></html>
